<html>
<title> - NON-PROLIFERATION AND ARMS CONTROL: STRATEGIC CHOICES</title>
<body><pre>[Senate Hearing 108-484]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-484

          NON-PROLIFERATION AND ARMS CONTROL: STRATEGIC CHOICES

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 10, 2004

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


                    U.S. GOVERNMENT PRINTING OFFICE
94-204                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman
CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
MICHAEL B. ENZI, Wyoming             RUSSELL D. FEINGOLD, Wisconsin
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
LAMAR ALEXANDER, Tennessee           BILL NELSON, Florida
NORM COLEMAN, Minnesota              JOHN D. ROCKEFELLER IV, West 
JOHN E. SUNUNU, New Hampshire            Virginia
                                     JON S. CORZINE, New Jersey

                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)



                            C O N T E N T S

                              ----------                              
                                                                   Page

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, opening 
  statement......................................................     1
Carter, Hon. Ashton B., Ford Foundation Professor, Co-Director, 
  Preventive Defense Project, John F. Kennedy School of 
  Government, Harvard University, Cambridge, MA..................    10
    Prepared statement...........................................    16
    ``Overhauling Counterproliferation,'' article to appear in 
      Technology in Society, April/July 2004.....................    21
Kanter, Hon. Arnold, Senior Fellow, Forum for International 
  Policy and Principal, The Scowcroft Group, Washington, DC......    28
    Prepared statement...........................................    33
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     4
Perry, Hon. William J., Michael and Barbara Berberian Professor, 
  Center for International Security and Cooperation, Stanford 
  University, Stanford, CA.......................................     6
    Prepared statement of William J. Perry and Brent Scowcroft...     7
    ``Good Nukes, Bad Nukes,'' article from The New York Times, 
      December 22, 2003..........................................     8

                                 (iii)

  

 
         NON-PROLIFERATION AND ARMS CONTROL: STRATEGIC CHOICES

                              ----------                              


                       WEDNESDAY, MARCH 10, 2004

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:35 a.m. in 
room SD-419, Dirksen Senate Office Building, Hon. Richard G. 
Lugar (chairman of the committee), presiding.
    Present: Senators Lugar, Alexander, Biden, and Bill Nelson.
    The Chairman. Good morning. This hearing of the Foreign 
Relations Committee is called to order.
    Let me announce this good news for the committee. Last week 
we had the mark-up of the United States-Japan Tax Treaty, as 
reported out by the committee. It was favorably received on the 
Senate floor last night.
    We would like to thank our Majority Leader, Dr. Frist, for 
making time for the treaty. It was passed unanimously. This 
will be good news to many people in the United States, as well 
as Japanese business and banking communities.
    I want to recognize the distinguished Ranking Member, 
Senator Biden, for his statement.


           OPENING STATEMENT OF SENATOR JOSEPH R. BIDEN, JR.,
                             RANKING MEMBER


    Senator Biden. Mr. Chairman, I thank you for the courtesy, 
and as I said to our witnesses privately, I sincerely apologize 
for not being able to stay this morning.
    There is a totally parochial, but important, event: The 
president of my alma mater, the University of Delaware, 
received a prestigious award and, at 9 minutes after 10 
o'clock, I am supposed to introduce him downtown. It's an award 
for an initiative I had begun relating to drugs and alcohol on 
campuses, and I am obliged to be there.
    But when these Three Musketeers, our witnesses, show up on 
the Hill, it is always for the most important of issues. I 
truly regret not being able to stay.
    And I am going to ask you, Mr. Chairman, if my entire 
statement could be placed into the record.
    The Chairman. It will be placed into the record in full.
    Senator Biden. And Mr. Chairman, I think we have to come to 
grips with the NPT. I think that we have to mend it and not 
throw it out. But I think the op-ed piece \1\ that these 
gentlemen wrote back on December 22, 2003, is really, really 
worth the entire Congress and administration considering and 
looking at some of the alternatives they've suggested.
---------------------------------------------------------------------------
    \1\ The op-ed piece referred to can be found on page 8.
---------------------------------------------------------------------------
    I look forward to them continuing to be available to the 
committee. I know that they have always been available to me 
and you, individually. And I just wanted to generally thank the 
three of you. You've made incredible contributions at a moment 
at which, in my view, if we don't begin to get some of this 
straight, it will be very difficult to turn around.
    It's not like making a mistake, if we make a mistake, on 
tax policy or social policy. The next Congress will come in and 
change the law, literally on a dime. This we can't do on 
nuclear non-proliferation. And so I hope that everyone listens 
to what you have to say today. I will read with interest your 
exchange with the chairman.
    I will close by saying, at this moment in our history, we 
are indeed fortunate to have a guy leading the Foreign 
Relations Committee like Dick Lugar, who, as the old joke goes, 
forgot more about many of these subjects than a lot of us will 
ever know.
    I thank him for his persistence and his dedication and his 
knowledge. And again, we're not going to let go of these 
issues. I appreciate the fact that you have not either.
    Thank you very much, Mr. Chairman, and in a moment I am 
going to have to leave, but I want to hear your opening 
statement. And again, I apologize and look forward to reading 
what you have to say, and seeing you all shortly.
    [The opening statement of Senator Biden follows:]

           Opening Statement of Senator Joseph R. Biden, Jr.

    Thank you, Mr. Chairman. Today's hearing is especially timely, 
given the events of the past year.

  <bullet> We discovered a global black market, headquartered in 
        Pakistan, which offered countries all of the essential 
        components for a nuclear weapons program.

  <bullet> North Korea moved to possibly expand its nuclear arsenal.

  <bullet> Iran has only partially cooperated with International Atomic 
        Energy Agency efforts to document the full scope of its nuclear 
        program, raising questions regarding its true intentions.

  <bullet> On the other hand, Libya is voluntarily dismantling its WMD 
        programs, with the assistance of the United States and the 
        United Kingdom.

  <bullet> And, finally, the United States went to war against Iraq, 
        ostensibly in part to end its nuclear weapons program. But, as 
        David Kay confirmed for all of us, that program was more a 
        mirage than reality.

    I am pleased that the committee has before it today an esteemed 
group of ``wise men'' to discuss the significance of these events for 
the future of nuclear arms control and non-proliferation. Bill Perry, 
Arnie Kanter, and Ash Carter need no introduction. Their December op-ed 
in the New York Times, co-written with Brent Scowcroft, helped clarify 
the growing discussion of the Nuclear Nonproliferation Treaty--the NPT. 
Gentlemen, I welcome you all.
    One element of the NPT is a promise to non-nuclear weapons states 
that, in return for forswearing nuclear weapons, they will enjoy the 
benefits of peaceful nuclear technology. That bargain has become 
frayed. Iran, Iraq and North Korea have all used their ostensibly 
civilian facilities to mask covert weapons programs.
    In Iran and North Korea, we were at least able to sound the alarm. 
Both states had secret efforts to produce weapons-grade plutonium and 
highly enriched uranium--and were caught. In Iraq, however, absent the 
gulf war of 1991, Saddam Hussein might have obtained highly enriched 
uranium without anybody realizing it.
    A smarter state, using a civilian program as the rationale, could 
build uranium enrichment facilities, spent fuel reprocessing cells, and 
the like--and properly report these efforts to the IAEA. It could 
acquire weapons-grade plutonium or highly enriched uranium, and place 
the material under IAEA safeguards. In other words, it could become a 
potential nuclear weapons power without violating safeguards. Then it 
could withdraw from the NPT, and develop and assemble nuclear weapons 
in a short time.
    That's the challenge we need to address. How do we counter not just 
states that do things in a hamhanded manner, but states that skillfully 
exploit the loopholes of the NPT? The Additional Protocol that we 
approved in committee last week can help make it much harder to hide a 
covert nuclear program--if we can persuade the rest of the world to 
sign such protocols as well. But how can we combat the ``breakout'' 
scenario?
    One idea gaining currency is to allow non-nuclear weapons states to 
continue to possess civilian nuclear programs, but not a closed nuclear 
fuel cycle. A state could have civilian nuclear reactors to produce 
electrical power, but must import the nuclear reactor fuel and return 
any spent fuel. This would ensure that a state did not obtain fissile 
material needed for a nuclear weapon.
    IAEA Director General Mohammed El-Baradei would allow only 
multinational facilities to produce and process nuclear fuels, and give 
legitimate end-users assured access to these fuels at reasonable rates. 
Our witnesses have endorsed this proposal, adding that states that 
refuse this bargain should be subject to sanctions. President Bush has 
not endorsed multinational facilities, but called upon members of the 
Nuclear Suppliers Group to refuse to export enrichment and reprocessing 
equipment to any state that does not already possess full scale 
enrichment and reprocessing plants.
    I am glad this debate has begun. Any agreement will be difficult to 
achieve. Non-nuclear weapons states will ask what they will get for 
surrendering a well established right. States with nuclear fuel 
industries may worry that they will go out of business if only a few 
multinational facilities are allowed to operate enrichment and 
reprocessing activities.
    I hope that the international community reaches a consensus in time 
for next year's NPT Review Conference. I do worry that any effort to 
formally amend the NPT would open a Pandora's Box. But perhaps we can 
add a protocol to the NPT, or seek a less formal statement interpreting 
Article 4 of the NPT.
    There is another bargain central to the NPT, one that this 
administration largely prefers to ignore. In return for forswearing 
nuclear weapons, non-nuclear weapons states received a commitment from 
the five permanent nuclear powers, reaffirmed as recently as 2000, to 
seek eventual nuclear disarmament.
    Nobody, including me, expects the United States to give up its 
nuclear deterrent any time in the foreseeable future. But the 
administration's drive to research and possibly produce new nuclear 
weapons--including low-yield nukes--is a step in the wrong direction.
    It signals to the rest of the world that even the preeminent global 
power needs new nuclear weapons to assure its own security.
    The administration threatens to take another backward step on a 
Fissile Material Cutoff Treaty. An FMCT has been a U.S. objective for 
eight years, and this administration castigated other countries for 
preventing negotiations from starting. Now that there is a chance of 
success, however, the administration says that we may refuse to 
negotiate. This only undermines solidarity with our allies, who worked 
for years to help us convince other countries to negotiate.
    I want to strongly second a key point made by our witnesses in 
their recent op-ed. For all the flaws of the NPT, it is an essential 
treaty. It has been vital to encouraging states like Ukraine, Belarus, 
Kazakhstan, South Africa, Brazil and Argentina to end their nuclear 
weapons programs.
    We should also acknowledge the important benefits provided by the 
IAEA. The IAEA helped crack open many of Iran's nuclear secrets. Just 
as the U.S. intelligence community is doing incredible work in breaking 
apart the A.Q. Khan procurement network, the IAEA is doing its part, 
utilizing information derived from its work on Iran and other nations.
    The IAEA needs and deserves our continuing support--both political 
support and the money, equipment and training that have helped make the 
IAEA a vital institution in nonproliferation, nuclear safety, and 
peaceful applications of atomic energy.
    Thank you, Mr. Chairman.

        OPENING STATEMENT OF SENATOR RICHARD G. LUGAR, CHAIRMAN

    The Chairman. I thank the Senator for his comments, and I 
appreciate his strong support on the issues that we're going to 
discuss this morning. It has been consistent and informed, and 
it has led to a strong bi-partisan view, in our committee, on 
these critical issues.
    Let me begin by simply saying that in my judgment, the No. 
1 security threat facing our country is the proliferation of 
weapons of mass destruction, and their intersection with 
terrorists groups and rogue states.
    Today, our committee meets to consider the United States 
efforts to respond to this threat through bilateral and 
multilateral non-proliferation and arms control. I believe that 
there is much to be done to make existing institutions more 
effective.
    Too often, opponents and proponents of arms control view 
bilateral and multilateral arms control agreements in absolute 
terms. Some opponents unjustly dismiss treaties as unverifiable 
and a threat to United States security, because they believe 
that parties cannot be stopped from cheating.
    Some proponents see arms control agreements almost as ends 
in themselves, even in cases where poor enforcement mechanisms 
or shifts in political or technological realities have 
diminished their usefulness.
    Absolutist arguments fail to describe the complexities of 
the current non-proliferation environment. Treaties and non-
proliferation programs can be effective, and can make 
significant contributions to the United States national 
security when verified and enforced aggressively. But the 
international community must commit itself to such a course. 
Even the most carefully written and intrusive arms control pact 
will fail if the political will to enforce it is lacking.
    Our experiences with the Non-Proliferation Treaty, the NPT, 
are illustrative of the centrality of effective enforcement. 
The NPT has contributed greatly to the prevention of new 
nuclear weapons states. But at the same time, the NPT has been 
ineffective in stopping determined cheaters, such as Iran, from 
pursuing a nuclear capability.
    Iran's clandestine drive toward a nuclear weapons 
capability was exposed by an Iranian resistance group and 
confirmed by the IAEA. Far from the complete cooperation 
pledged by Iran, inspectors are involved in a complex chess 
match, where each request for information or access is met with 
Iranian misdirection, contradiction and sometimes lies. Tehran 
has been caught red-handed with a weapons program, but 
continues to obfuscate. In fact, Iran has not even fully abided 
by the agreement it made in October with Great Britain, France, 
and Germany. Iran's Foreign Minister hedged on his country's 
commitment by suggesting that Tehran had agreed ``to the 
suspension, not stopping, of the uranium enrichment process.''
    The IAEA Board of Governors is locked in a debate as to 
what to do about Iran. The United States, Canada and Australia 
continue to push the Board to take real steps to enforce the 
NPT. Despite the clear evidence that Iran is a determined 
cheater, concerns have been raised about the implications of 
decisive action. Some worry that a Board referral of non-
compliance to the United Nations Security Council would push 
Iran's leadership to abandon the NPT. Even if this were true, 
keeping Iran in the NPT should not be an end in itself.
    Iran claims that it has the right to develop a nuclear fuel 
cycle to support a domestic nuclear energy program. Many 
nations, including Iran, point to the NPT's assurance of access 
to peaceful nuclear technology as one of the principle 
rationales for their accession. Unfortunately, in the case of 
Iran, this access to technology has been exploited as a loop-
hole that allows states to pursue weapons under the guise of 
peaceful nuclear power.
    Adding to the complexities faced by the international 
community, the nuclear fuel-cycle itself produces dangerous 
fissile materials and radiological waste that can be used to 
construct a dirty bomb. More needs to be done to head off this 
type of threat.
    Last month, in a speech at the National Defense University, 
President Bush made a number of useful proposals in the area of 
arms control. With regard to the NPT, the President proposed 
that the forty members of the Nuclear Suppliers Group should 
refuse to sell uranium enrichment reprocessing equipment to any 
state that does already possess full-scale, functioning 
enrichment or reprocessing plants. Additionally, the President 
proposed that all states seeking access to civilian nuclear 
power should sign an additional protocol with the IAEA by next 
year as a condition of their access to civilian nuclear 
technology.
    With regard to the IAEA, the President proposed two 
important changes. First, he called on the IAEA Board of 
Governors to create a special committee on safeguards and 
verification, to improve the organization's ability to enforce 
compliance with nuclear non-proliferation obligations. And 
second, the President urged that no state under investigation 
for proliferation violations should be allowed to serve on the 
IAEA Board of Governors or on the new special committee.
    The Bush administration also has pursued the Proliferation 
Security Initiative, or PSI. The sixteen nations that 
participate in the PSI have had notable successes. The seizure 
last October of a ship bound for Libya carrying Malaysian-
manufactured centrifuge components helped initiate revelations 
about Pakistani scientists' clandestine nuclear-weapons network 
and provided further motivation for Libya to disarm.
    The PSI provides a flexible, immediate and cooperative 
approach to weapons proliferation. It can be described as an 
operational component of non-proliferation. The legal and 
organizational apparatus associated with traditional arms 
control or non-proliferation agreements rarely allow for such 
speed.
    Today we welcome truly good friends to the committee. 
William Perry is a former Secretary of Defense and is currently 
a professor at Stanford University. Ash Carter is a former 
Assistant Secretary of Defense for National Security Policy and 
is currently a professor at Harvard University. Arnold Kanter 
is a former Under Secretary of State and is currently a 
principal of the Scowcroft Group.
    Our witnesses were joined by former National Security 
Advisor, Brent Scowcroft, in writing an op-ed in the New York 
Times last December that paralleled some of the President's 
proposals on which Senator Biden has commented so favorably 
this morning. I am eager to hear their view of President Bush's 
non-proliferation policy. Furthermore, we would appreciate 
their insights into what additional steps the United States 
might take on a bilateral and multilateral basis to reduce the 
threats posed by the proliferation of weapons of mass 
destruction.
    Gentlemen, it is an honor and a pleasure to have you with 
the committee this morning.
    I would add that Ash Carter, as I have often pointed out 
publicly, wrote a paper at Harvard, which served as the basis 
for the bi-partisan breakfast of Senators that preceeded 
introduction of the Nunn-Lugar legislation. We have always 
pointed to that paper as a seminal factor in the process of 
getting our legislation going. We have appreciated all of Ash's 
additional support through out the years.
    Ash and Secretary Perry accompanied Sam Nunn and me on a 
trip to Russia and the Ukraine in the spring of 1992. They 
tried to put some flesh into the legislation, and to offer some 
help to the administration at that time. It was a plane full of 
talent. These two, who were later to play very important roles 
in the Department of Defense, were very instrumental in the 
formation of the Cooperative Threat Reduction legislation. They 
were there from the beginning.
    Arnold Kanter has been a mentor for all of us throughout 
the years, as well as a spur. Sam Nunn and I went to South 
Korea very early on in this process, having already visited 
with Mr. Primakov in Russia, when he was in the intelligence 
business there. Arnold Kanter's sage advice was very, very 
important, as we tried to think through where we were headed 
with this legislation, and with non-proliferation, generally.
    I have wonderful memories of all three of you, and I am so 
pleased that you're here today. I would ask that you proceed in 
whatever order that you may wish.
    But, I would suggest, perhaps, Secretary Perry and then 
Secretary Carter and then Secretary Kanter. All of your 
statements will be made part of the record in full.
    You may give your full statements or summarize them, but 
take the time that you need. The purpose of this hearing is to 
hear you and to have the full benefit of your views.
    Secretary Perry.

OPENING STATEMENT OF HON. WILLIAM J. PERRY, MICHAEL AND BARBARA 
  BERBERIAN PROFESSOR, CENTER FOR INTERNATIONAL SECURITY AND 
         COOPERATION, STANFORD UNIVERSITY, STANFORD, CA

    Mr. Perry. Thank you very much, Mr. Chairman.
    I will briefly summarize my written statement which is in 
the record.
    The statement is entitled, ``A Policy Framework for 
Countering Weapons of Mass Destruction.'' In my summary I want 
to make three points.
    The first point is to stress the grave importance of this 
problem and the utmost priority that should be given to it in 
United States National Security policy. It is not alarmism, but 
called reality. Without vigorous U.S. counter proliferation 
efforts, a nuclear weapon could explode on U.S. soil sometime 
in the coming years. That is the event that we should be 
focused on.
    The second point I want to make is that there is no silver 
bullet or policy to stop proliferation of weapons of mass 
destruction. It requires a comprehensive program and succeeding 
speakers will talk in some detail of what the elements of that 
program is.
    The third point I want to make is that like the war on 
terrorism, the war on weapons of mass destruction requires 
strong U.S. leadership, but, and this is an important but, it 
cannot be accomplished by U.S. action alone. It does require 
fundamentally an international effort.
    Now beyond my statement, I want to close with a purely 
personal remark. And in this, I want to quote Andrei Sakharov, 
the great Russian physicist, who during the height of the cold 
war wrote, ``reducing the risk of annihilating humanity with 
nuclear weapons must be the overriding consideration over all 
other priorities.'' And so it was during the cold war and so it 
should be today.
    Today, we risk not annihilating civilization, what we risk 
is a nuclear bomb being detonated in an American city. And this 
could transform civilization in ways that would be very 
terrible.
    Today, we do have programs designed to prevent the 
proliferation of nuclear weapons, but my concern and my deep 
concern is that these programs are not being treated as 
priority programs.
    You will hear from Dr. Carter and Dr. Kanter, specific 
recommendations on actions we should be taking to protect our 
country by dramatically strengthening these programs. We should 
be pursuing these recommended programs. As Andrei Sakharov has 
said, with an overriding priority overall other considerations.
    If we do not, if we allow a terrorist to detonate a nuclear 
bomb in Washington, DC, New York, or San Francisco, we will 
forever after be asking ourselves why we didn't take the 
actions necessary to prevent that catastrophe.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Secretary Perry and Brent 
Scowcroft follows:]

    Prepared Statement of Hon. William J. Perry and Brent Scowcroft

     a policy framework for countering weapons of mass destruction
    Mr. Chairman and Members of the Committee, thank you for inviting 
me and my good friend Brent Scowcroft to kick off this hearing on 
Nonproliferation and Arms Control: Strategic Choices. Brent could not 
be here today, but he asked me to make this brief opening statement on 
behalf of both of us.
    First of all, Brent and I commend the Committee for addressing 
itself to this topic, which is the most important security imperative 
of our era and which President Bush has succinctly posed as the need to 
``keep the worst weapons out of the hands of the worst people.''
    Brent and I have long worked together on issues involving WMD. 
Initially our concern was, of course, the nuclear arsenals of the cold 
war superpowers and their potential to unleash destruction on a scale 
that would almost literally have wiped out civilization. I was a member 
of the Scowcroft Commission during the Reagan administration that 
assessed the options for maintaining a nuclear deterrent to Soviet 
attack that was strong and, at the same time, survivable and 
stabilizing.
    For a time Brent and I co-chaired the bipartisan Aspen Strategy 
Group, which has counted among its members over the years many 
important thinkers about U.S. national security, including Vice 
Presidents Cheney and Gore, National Security Advisor Condi Rice, and 
you yourself, Mr. Chairman, as well as Senators Hagel and Brownback of 
this Committee, and Senators Reed and Hutchison. This past summer the 
four of us making statements before you today--Brent and myself, Ash 
Carter, and Arnie Kanter, all members of the Aspen Strategy Group--were 
reflecting on how the WMD problem has changed from the cold war days. 
Out of that discussion came our proposal, detailed in the New York 
Times op-ed attached to my statement, to strengthen the Nuclear Non-
proliferation Treaty regime to deal better with such serious problems 
as the Iranian nuclear program. A national and indeed international 
debate on this proposal, and what we hope would be swift adoption of it 
in some form, is an example of the kind of policy response to the WMD 
threat that the series of hearings being launched today can catalyze. I 
was pleased that President Bush included this concept in his recent 
speech at National Defense University.
    Mr. Chairman, I would like to make two principal points on our 
behalf in opening this hearing.
    The first is to stress the grave importance of this problem and the 
utmost priority that should be given to it in U.S. national security 
policy. It is not alarmism but cold reality that without vigorous U.S. 
counterproliferation efforts a nuclear weapon might explode on U.S. 
soil sometime in coming years. Such an event--or even an ever-present 
knowledge that nuclear weapons were ``loose'' in the hands of 
terrorists--would transform the way we live. Who would wish to live or 
work within the concentric rings of progressive destruction around this 
Capitol if we came to believe that a nuclear detonation here was 
possible any minute? Yet we could face this knowledge in the future if 
only a fraction of the fissile material already made, let alone that 
which may be in the making in such places at North Korea, fell into the 
hands of the many who would use it--without warning, without remorse, 
and without fear of retaliation. America's national security leaders 
owe our people freedom from this fear, above all else.
    Second, there is no silver bullet of policy to stop proliferation 
of WMD--neither preemption, nor arms control, nor export controls, nor 
diplomacy, nor missile defense, nor deterrence, nor any other single 
tool. The point so often missed in debate over this central security 
problem is that we need, in one way or another, all of these 
approaches. The problems of WMD spread to state and non-state actors 
are different in different places, and the variety of the problems must 
be matched with a variety of approaches. The magnitude of the problem 
requires that we leave no option out of our consideration. We need to 
be strengthening each and every one of our counterproliferation tools. 
Some of our approaches date back decades and, like the NPT example I 
gave above, are in need of fundamental overhaul.
    Mr. Chairman and Members of the Committee, we need a war on WMD as 
vigorous as the war on terrorism. Like the war on terrorism, the war on 
WMD requires strong U.S. leadership but cannot be accomplished by U.S. 
action alone. The Committee's effort to frame the agenda for a 
comprehensive, stronger, and global approach to protecting the U.S. 
from WMD is exactly what is needed at this time, and Brent Scowcroft 
and I are pleased to share today in your effort.

[Attachment.]

          [From The New York Times, Monday, December 22, 2003]

                         GOOD NUKES, BAD NUKES

         (By Ashton B. Carter, Arnold Kanter, William J. Perry
                          and Brent Scowcroft)

    The Nuclear Nonproliferation Treaty is arguably the most popular 
treaty in history: except for five states, every nation in the world is 
part of it. For more than three decades, it has helped curb the spread 
of nuclear weapons.
    Since 9/11, however, and especially in the last several months, the 
viability of the treaty has been called into question. Some say it is 
obsolete. Others say it is merely ineffective. In support of its 
argument each side cites the situation in Iran, which has been able to 
advance a nuclear weapons program despite being a member of the treaty.
    The Iranian nuclear program--and, to a lesser extent, the 
activities of Libya, which has also signed the treaty but announced 
last week it would give up all illegal weapons programs--highlight both 
the utility and the limitations of the treaty. It is not obsolete; if 
the treaty did not exist, we almost certainly would want to invent it. 
At the same time, it would be a mistake to rely on it exclusively to 
address the problem of nuclear proliferation.
    Those who say the treaty is useless argue that the bad guys either 
don't sign the treaty, or they do and then cheat. The good guys sign 
and obey, but the treaty is irrelevant for these countries because they 
have no intention of becoming nuclear proliferators in the first place.
    This all-or-nothing argument is wrong. First, it fails to 
acknowledge that there is an important category in between good guys 
and bad guys. For these in-betweens--countries like Ukraine, 
Kazakhstan, South Africa, Argentina or South Korea--the weight of 
international opinion against proliferation expressed in the treaty has 
contributed to tipping the balance of decision-making against having 
nuclear weapons.
    Second, the treaty does have an impact even on ``bad guys'' like 
Iraq, Iran and North Korea. When the United States moves against such 
regimes, it does so with the support of the global opprobrium for 
nuclear weapons that the treaty enshrines.
    This consensus undergirds the multilateral approach that is under 
way to resolve the North Korean nuclear issue, and was at the heart of 
the international pressure that persuaded Tehran to increase the 
transparency of its nuclear program. Even in the divisive case of Iraq, 
no one argued that Saddam Hussein should be left alone with weapons of 
mass destruction.
    Yet the treaty is not perfect. It allows, for example, nations that 
forswear nuclear weapons to develop nuclear power for peaceful 
purposes. Signatories may build and operate nuclear power reactors, and 
they are permitted to produce enriched uranium that fuels the reactors, 
to store the radioactive spent fuel from those reactors, and to 
reprocess that spent fuel. The only specific obligations are that 
signatories declare these plants to the International Atomic Energy 
Agency and permit the agency to inspect them.
    The problem is that this ``closed fuel cycle'' gives these 
countries the inherent capacity to produce the fissile material 
required for a nuclear weapon. Facilities used to produce enriched 
uranium for power reactors can also be used to produce enriched uranium 
for weapons. Reprocessing spent fuel yields plutonium that can be 
fashioned into nuclear weapons.
    As North Korea and Iran demonstrate, regimes that intend to violate 
the treaty's ban on nuclear weapons can exploit this right to operate a 
nuclear power plant. While seeming to remain within the terms of the 
treaty, they can gather all the resources necessary to make nuclear 
weapons. Then they can abrogate the treaty and proceed to build a 
nuclear arsenal.
    The world should renew its determination to curb the spread of 
nuclear weapons by supplementing the current treaty with additional 
inducements and penalties. The key is to draw a distinction between the 
right to a peaceful civilian nuclear power program and the right to 
operate a closed fuel cycle. The first should be preserved--and perhaps 
enhanced--but the second should be seriously discouraged, if not 
prohibited.
    How might such a system work? In addition to their treaty 
obligations, those countries seeking to develop nuclear power to 
generate electricity would agree not to manufacture, store or reprocess 
nuclear fuel. They also would agree to submit to inspections (probably 
under the atomic energy agency) to verify their compliance.
    Those countries that now sell peaceful nuclear technology in 
accordance with the treaty, meanwhile, would agree not to provide 
technology, equipment or fuel for nuclear reactors and related 
facilities to any country that will not renounce its right to enrich 
and reprocess nuclear fuel, and agree not to sell or transfer any 
equipment or technology designed for the enrichment or reprocessing of 
nuclear fuel. At the same time, these countries would agree to 
guarantee the reliable supply of nuclear fuel, and retrieval of spent 
fuel at competitive prices, to those countries that do agree to this 
new arrangement.
    We might also consider sanctions on those countries that 
nevertheless choose to pursue a closed fuel cycle. Whatever the precise 
content and form of these undertakings, it would probably be better to 
treat them as a companion to that treaty, rather than embark on the 
complicated and controversial process of amending it.
    Why would any countries that want to develop a peaceful nuclear 
power program agree to such a bargain? One blunt answer is that if 
these restrictions were put in place, these countries would have 
virtually no choice, because developing the necessary technology from 
scratch is a daunting task. Refusing the arrangement would open them up 
to international scrutiny and pressure. On the other hand, any country 
that was truly interested in developing nuclear power for peaceful 
purposes would undoubtedly welcome a guaranteed supply of nuclear fuel.
    And why would countries that now supply nuclear technology be 
interested? First, no nation in this category has any interest in 
adding any country to the roster of the world's nuclear states. Second, 
over time, there probably is more money to be made in nuclear fuel 
services than in nuclear reactors.
    Iran provides an excellent opportunity to test this approach. 
Building on the progress recently announced in Tehran, the United 
States should propose that Russian plans to help Iran build a network 
of civilian nuclear power reactors be permitted to proceed--provided 
that Iran enters into a verifiable ban on its enrichment and 
reprocessing abilities, and into an agreement to depend instead on a 
Russian-led suppliers' consortium for nuclear fuel services.
    The Russians would be likely to embrace such a proposal for 
commercial and political reasons, and the Iranians would be confronted 
with a clear test of whether they harbor nuclear weapons ambitions. 
Britain, France and Germany, whose foreign ministers recently proposed 
a similar scheme to Iran, would need only to avoid the temptation to 
undercut the Russians on behalf of their own nuclear industry. And the 
United States could reap the benefits of offering a constructive 
initiative to address the Iranian nuclear problem.
    Of course, this new arrangement would hardly be a cure-all. And 
making it work would be difficult. But at a time when its effectiveness 
and relevance are being questioned, such an approach would strengthen 
the treaty by furthering its goals: preventing the spread of nuclear 
weapons while promoting the development of peaceful nuclear energy.

    The Chairman. Thank you very much, Secretary Perry.
    Secretary Carter.

   OPENING STATEMENT OF HON. ASHTON B. CARTER, CO-DIRECTOR, 
     PREVENTIVE DEFENSE PROJECT, JOHN F. KENNEDY SCHOOL OF 
         GOVERNMENT, HARVARD UNIVERSITY, CAMBRIDGE, MA

    Mr. Carter. Thank you, Mr. Chairman.
    Thank you for inviting me to be here today. And thank you 
very much for your kind remarks in the introduction.
    The last time I testified before this committee, the topic 
was the North Korean nuclear crisis.
    In their joint statement, Secretary Perry and General 
Scowcroft indicated that they had been working together with 
Arnie Kanter, also at the table, and me recently, on ideas on 
how to stop Iran's nuclear program.
    And of course, most of this last year all of us have had 
our attention riveted on the war to stop Iraq's weapons of mass 
destruction.
    But you, today, Mr. Chairman, ask us to step back a bit and 
to look not at today's hot spots, but beyond those hot spots to 
the underlying policies and programs of the United States for 
counter proliferation. And it is those that I would like to 
address.
    And it's a particular interest of mine because I was 
involved in launching the Pentagon's Counter Proliferation 
Initiative almost 10 years ago. There were very few hawks on 
this subject at that time.
    The way you framed this hearing, Mr. Chairman, is a 
reminder that although in dealing with the rogues is vitally 
important, it is not the totality of the counter proliferation 
approach and policy we need. A clear indication that our 
approach to countering proliferation should not begin and end 
with the rogues, is that most of the nearly 200 nations on 
earth most have not, in fact, resorted to weapons of mass 
destruction. There are few rogues fortunately.
    In one of Arthur Conan Doyle's famous novels, Sherlock 
Holmes sees a vital clue to a murder in the fact that a dog at 
the scene of the crime did not bark. In a similar way, we 
should see a clue to one aspect of a successful counter 
proliferation policy in the fact that such countries as 
Germany, Japan, Turkey, South Korea and Taiwan have not 
resorted to weapons of mass destruction.
    They have not because they were dissuaded from doing so by 
a stable reliance relationship with the United States which 
offered better security for them than weapons of mass 
destruction. This is something the United States has been doing 
right and should keep doing right.
    Later I will return to this point because I have some 
concerns about the health of our alliances and partnerships.
    Other nations have foregone weapons of mass destruction as 
part of a disarmament agreement like the Nuclear Non-
Proliferation Treaty that ensures them that if they forego 
weapons of mass destruction, their neighbors will forego 
weapons of mass destruction. If disarmament regimes can be 
strengthened and updated so that they offer credible 
protection, and Arnie Kanter will indicate later how this might 
be done for the NPT, they too can play a vital role in counter 
proliferation.
    Now when dissuasion and disarmament fail and a nation heads 
down the road to weapons of mass destruction acquisition 
nonetheless, focused diplomacy by the United States can 
sometime reverse its course. Recent decades give many examples 
of successful U.S. diplomacy: Ukraine, Kazakhstan, and Belarus 
after the collapse of the Soviet Union; South Korea and Taiwan 
in the 1980s; Argentina and Brazil in the 1990s; perhaps Libya 
in recent years.
    Some proliferators cannot be turned back by diplomacy. And 
at that point our approach must be to deny them the means to 
make weapons of mass destruction. Keeping the worst weapons out 
of the hands of the worst people, to paraphrase President Bush. 
Export controls, covert action, the new Proliferation Security 
Initiative, and the highly successful Nunn-Lugar program all 
contribute to the strategy of denial.
    Finally, sometimes dissuasion, disarmament, diplomacy, and 
denial don't work, and despite our best efforts proliferation 
occurs. It was important to me during the time I served in the 
Defense Department that U.S. efforts to counter weapons of mass 
destruction not end when non-proliferation had failed, and this 
is one reason we coined the word counter proliferation. At the 
point when non-proliferation fails we need to offer protection 
to our forces, people, and allies against weapons of mass 
destruction.
    Elimination of hair-trigger alert postures, improved 
permissive action link type technology, and other defusing 
measures can reduce the chances of accidental or unauthorized 
use of weapons of mass destruction where they occur--from 
Russia for example, or between India and Pakistan. With respect 
of deliberate use of weapons of mass destruction after 
proliferation has occurred, the United States should continue, 
in my judgment, its current policy of threatening overwhelming 
and devastating retaliation against anyone who uses nuclear, 
chemical, or biological weapons against us, since in at least 
some cases deterrence might be effective.
    Where deterrence fails, defenses ranging from chemical 
suits, inhalation masks, and vaccines to ballistic missile 
defense are needed.
    And finally, where all of that fails and the risk of 
weapons of mass destruction use is imminent, preemptive 
destruction of hostile weapons of mass destruction might be a 
necessary last resort.
    So, Mr. Chairman, dissuasion, disarmament, diplomacy, 
denial, defusing, deterrence, defenses, destruction, what the 
Department of Defense calls the eight ``Ds,'' are the tools of 
a comprehensive counter proliferation policy. And besides being 
an easy jog to the memory, the eight Ds are a reminder that 
there is no silver bullet for counter proliferation. Not 
preemption, not arms control, not any other single tool.
    From listening to the public debate one might come to 
believe that one of these tools holds the key to protection 
against proliferation. But the dynamics driving proliferation 
in different countries are different enough that no single 
label or doctrine can cover them all. One might also infer from 
the public debate that the eight Ds are competing, alternative 
doctrines. In fact, we need them all.
    So today, a counter proliferation hawk should be trying to 
strengthen all the eight Ds, all the tools in the toolbox. And 
many of them are in need of fundamental overhaul. One reason 
for that is that we have not yet heeded a lesson of the attacks 
of 9/11, the counter proliferation and counter terrorism are 
inseparable in the 21st century.
    As I indicated when I appeared before you to discuss the 
North Korea nuclear crisis, we must be concerned not only about 
what Kim Jong Il might do with the nuclear weapons he obtains 
from the plutonium he is reprocessing, but also about the other 
hands into which North Korea's nukes might someday fall, either 
through sale or in the chaos of a collapse of the North Korean 
regime.
    The half life of plutonium 239 is 24,400 years. Surely the 
North Korean regime will not last that long. Today's 
proliferation threat is therefore tomorrow's catastrophic 
terrorism threat. Who among us would not give a great deal now 
to return to the 1980s and stop the Pakistani nuclear program, 
which might be Talibanized sometime in the future. A real 
nightmare scenario?
    And 9/11 should have caused us to overhaul our approach to 
counter proliferation as fundamentally as our approach to 
counter terrorism. But so far the worst people have gotten more 
attention than the worst weapons.
    The counter proliferation hawk's agenda would have six 
priorities which together cover all the eight Ds. And in the 
remainder of my time I would like to sketch out what in each of 
those six categories should be done.
    The first is to strengthen our alliances and partnerships. 
I indicated earlier that the prospect of being embedded in a 
stable security relationship has been critical in preventing 
many countries from proliferating. This under appreciated 
benefit of our security partnerships is yet another reason to 
avoid the temptation to make a virtue of an Iraq war necessity, 
the so-called coalition of the willing.
    For this and for several other reasons I won't take the 
time to describe, but are in my statement, we should reject the 
notion that the United States can operate effectively through 
coalitions of the willing. And use the concept only as the last 
resort when we have had no success in leading our allies in our 
direction.
    Second, expand the scope of Nunn-Lugar. Nunn-Lugar is 
recognized to be not only a Department of Defense program 
focusing on the Soviet Union, Mr. Chairman, the way it began a 
dozen years ago, but an entirely new and novel and broad-
ranging approach to eliminating weapons of mass destruction. An 
approach of wide applicability.
    At the time the United States formed a coalition against 
al-Qaeda after 9/11, it should have formed a parallel coalition 
against weapons of mass destruction based on the Nunn-Lugar 
approach. In fact, such a coalition against weapons of mass 
destruction terrorism was proposed at the time by none other 
than Senators Nunn and Lugar. The United States missed a major 
opportunity to transform counter proliferation while it had the 
attention and sympathies of the world.
    Still it is not too late to expand the scale and scope of 
Nunn-Lugar. The expansion would plan for and fund: First, the 
final and complete safeguarding of all Soviet Union fissile 
materials in weapons and non-weapon form.
    Second, bolder inroads into former Soviet biological and 
chemical stockpiles and facilities.
    Third, collection of all significant caches of highly 
enriched uranium worldwide, eliminating these sleeper cells of 
nuclear terrorism.
    Fourth, complete and verifiable elimination of weapons of 
mass destruction programs in Iraq, Libya, Iran and North Korean 
when and as circumstances permit.
    Promulgation and adoption of world-class standards for 
inventory control, safety and security for all weapons and 
weapons usable materials.
    Strengthening border and export controls and devising 
cooperative international responses in the event of an incident 
of nuclear terrorism.
    As you have noted yourself, Mr. Chairman, Nunn-Lugar is 
much praised but little funded in Washington, DC and other 
capitals. Here in Washington, there are tenacious opponents in 
Congress and even in the administration, despite the fact that 
President Bush has voiced his support for the program.
    Third, update and upgrade the Nuclear Non-Proliferation 
Treaty. The NPT is sometimes disparaged because it said the bad 
guys can ignore it with impunity since it has inadequate 
verification and enforcement provisions. And the good guys 
would be good with or without an agreement.
    This contention is wrong for two reasons. First, the world 
does not divide neatly into good guys and bad guys in regard to 
proliferation behavior. There's an important in between 
category. This group has been represented over time by the ones 
I named before: Ukraine, Kazakhstan, Belarus, Argentina, 
Brazil, Taiwan, South Korea and South Africa. And in all of 
these cases, the allure of greater international acceptance, if 
they abandoned their nuclear ambitions and signed the NPT, was 
one of the factors in their decision.
    Second reason it is wrong, is that it is important to note 
that agreements like the NPT are in fact useful even in dealing 
with the bad guys, in an indirect way. When it becomes 
necessary for the United States to lead action against the 
rogues, we do so with the support of the general opprobrium for 
nuclear weapons that the NPT enshrines.
    While the NPT has great value in its current form, 
therefore its provisions can and should be strengthened. Bill 
Perry has mentioned this problem in his joint statement with 
Brent Scowcroft, and Arnie Kanter will cover it in more detail.
    A fourth, we should make it a part of the Pentagon's 
transformation. In the 1990s, the term ``counter 
proliferation'' was coined as I mentioned earlier, to signify 
that contending with weapons of mass destruction was an 
important Department of Defense mission in the post cold war 
world.
    And a number of counter proliferation programs were created 
within the Department of Defense at that time to try to focus 
research, development and acquisition on non-nuclear counters 
to weapons of mass destruction on the battlefield because the 
President deserves better options than firing U.S. nuclear 
weapons if someone uses weapons of mass destruction against us.
    Over time, that kind of proliferation programs were 
expanded to protect rear areas and ports and airfields in the 
theater of war, and subsequently technologies for protecting 
allied rear areas were recognized to be applicable to the 
protection of the U.S. homeland as well.
    So by 9/11, the Department of Defense was recognized as the 
lead agency in the Federal Government for developing and 
fielding technology for countering weapons of mass destruction. 
Chemical and biological warning sensors, improved vaccines 
against biological-attack, individual and collective protective 
coverings, special munitions for attacking and neutralizing 
enemy weapons of mass destruction, radio chemical forensics, 
and active defenses such as ballistic missile defenses. All of 
those things.
    Today, the Pentagon is quite rightly devoting a portion of 
its growing budget to transforming the military. But the core 
of that effort remains conventional warfare: Long range 
precision strike, close integration of intelligence information 
with operations, Closer working of Army, Navy and Air Force 
units in joint operations.
    These are all worthy transformation goals for conventional 
warfare, but they need to be matched, and they are not matched 
at this time, by any comparable counter-weapons of mass 
destruction emphasis. Counter proliferation needs more 
resources and a clearer management structure within the 
Department of Defense.
    Fifth, the same observation that I just made about defense 
transformation could be made about the priority given to 
weapons of mass destruction in the new Homeland Security 
agencies and budget.
    If the worst kind of terrorism imaginable is weapons of 
mass destruction terrorism, why is so small a fraction of the 
new Homeland Security program devoted to innovative efforts to 
prevent and respond to weapons of mass destruction terrorism?
    Last and sixth, overhaul weapons of mass destruction 
intelligence and avoid the specter of policymaking in the dark. 
No policy tool, preemption, disarmament, missile defense, 
denial can be effective if the existence and nature of weapons 
of mass destruction efforts is unknown or imprecise.
    And Secretary of Defense Rumsfeld became convinced in the 
course of his work on ballistic missile proliferation before he 
took office, that adequate intelligence on weapons of mass 
destruction programs or at least ballistic missile programs, 
was unlikely to be present. Given the stakes, he concluded, the 
United States must assume the worst in formulating its policy 
response. This logic, encapsulated in the maxim ``absence of 
evidence of weapons of mass destruction is not evidence of 
absence,'' was the main intellectual argument in the Rumsfeld 
report leading to the deployment of a National Missile Defense.
    The argument was that we would not know the exact timetable 
for the deployment of an Iranian or North Korean ballistic 
missile threat, and therefore it was imprudent merely to 
prepare to deploy in anticipation of the emergence of that 
threat. Instead it was necessary to deploy immediately.
    I myself applied that same logic to the need for a 
preemptive war in Iraq. I along with many others believed it 
was safer to assume Saddam Hussein was trying to fulfill his 
long-demonstrated quest for weapons of mass destruction than to 
interpret the scanty intelligence available as evidence of a 
scanty program. I still believe that my judgment to support the 
invasion of Iraq was sound on the basis of the information 
available at the time. But we now know that the overall picture 
of that information painted was incorrect.
    The matter of pre-war intelligence on Iraq's weapons of 
mass destruction is a subject of several ongoing inquiries, and 
my purpose in raising it is not to anticipate their results but 
to point to the larger issue of how to improve weapons of mass 
destruction intelligence in general and get out of the worst 
case mode where we can.
    Weapons of mass destruction activities are inherently 
difficult to monitor, and therefore a profound question bearing 
upon all of the eight Ds, is whether adequate intelligence is 
likely to be available to make any of them effective. If not 
the world is doomed to a perpetual situation reminiscent of the 
``missile gap'' of the 1950s, where policymaking was forced 
into worst case scenario mode.
    The uncertainties of the 1950s missile gap were 
substantially dispelled by the invention of satellite 
reconnaissance. And in this field of counter proliferation also 
technology can make a substantial difference. I won't take the 
time to detail that, but it is detailed in an article which I 
have attached to my written statement that will be published 
shortly in Technology in Society.
    Technology is important, but no technology in the offing 
holds the promise of lifting the veil of weapons of mass 
destruction activities completely the way satellite photography 
lifted the veil of the Soviet Union's nuclear missile and 
bomber programs. So accurate intelligence on weapons of mass 
destruction needs to be enhanced by some additional 
ingredients. There are matters of policy and management.
    One ingredient is active transparency by the parties under 
surveillance. Governments around the world will have to allow 
greater access to their territory, facilities, and scientists 
if there is to be any kind of accurate underpinning of counter 
proliferation.
    The second ingredient must be the shifting of the burden of 
proof from the international community to the party under 
suspicion.
    Third, since proliferation is essentially a scientific 
activity, we also need to increase the number and level of 
technical training of the scientists and engineers in the 
intelligence community, as well as the linkages between the 
intelligence community and the broader scientific community.
    And fourth, very importantly, a great spur of quality and 
motivation of an intelligence effort is a clear link to action. 
Since 9/11, as you know, the counter terrorism intelligence 
effort has become more actionable. To simplify somewhat, the 
counter terrorism effort has moved from producing papers 
characterizing terrorists groups to supporting operations to 
interdict terrorists.
    As the counter proliferation efforts gets more operational, 
as I hope it does, through covert action, the PSI, expanded 
Nunn-Lugar, and verifying weapons of mass destruction 
elimination in Iraq, Libya, and hopefully elsewhere, the demand 
for actionable intelligence will increase. And if history is 
any guide, the intensity and quality of collection and analysis 
by the intelligence community will increase in response.
    Taken together and with urgency, these five steps I have 
named leave me, if we take them, optimistic that such an 
overhaul of our weapons of mass destruction related 
intelligence effort can provide accurate intelligence to 
undergird all of the eight Ds.
    Well, Mr. Chairman and members of the committee, let me 
close by repeating something Dr. Perry said, which is, ``the 
war on terrorism and the war on proliferation are strongly 
linked in the 21st century.'' But they are not identical. So 
far we're waging the war on terrorism much more vigorously than 
we're waging the war on weapons of mass destruction, attacking 
the worst people much more than the worst weapons.
    I hope this series of hearings results in an overhaul of 
counter proliferation that is as far reaching as the overhaul 
of counter terrorism that began on 9/11. And that the measures 
I have recommended provide an agenda for action.
    Thank you.
    [The prepared statement of Secretary Carter follows:]

              Prepared Statement of Hon. Ashton B. Carter

                    OVERHAULING COUNTERPROLIFERATION

    Mr. Chairman and Members of the Committee on Foreign Relations, 
thank you for inviting me to appear before you today. Last time I 
testified before you, the topic was the North Korean nuclear crisis. 
Bill Perry and Brent Scowcroft indicated that we had been working 
together with Arnie Kanter recently on how to stop Iran's nuclear 
program. And, of course, much of the attention of all of us over the 
past year has been on the war to stop Iraq's weapons of mass 
destruction programs.
    Today you have asked me to step back a bit and look beyond today's 
proliferation hotspots to the underlying policies and programs of the 
United States for counterproliferation (CP). I was deeply involved in 
launching the Pentagon's CP Initiative almost ten years ago, when there 
were few of us hawks on this subject. The way you have framed this 
hearing is a reminder that dealing with the so-called ``rogues,'' 
though vitally important, is not the totality of the CP policy we need.
No Silver Bullets: A Comprehensive Approach to Counterproliferation
    A clear indication that our approach to countering proliferation 
should not begin and end with the rogues is that most of the nearly 200 
nations on earth have not, in fact, resorted to weapons of mass 
destruction (WMD). There are but a few rogues, fortunately. In one of 
Arthur Conan Doyle's famous novels, Sherlock Holmes sees a vital clue 
in the fact that a dog at the scene of the crime did not bark. In a 
similar way, we should see a clue to one aspect of a successful CP 
policy in the fact that such countries as Germany, Japan, Turkey, South 
Korea, and Taiwan have not resorted to WMD. They have not because they 
were dissuaded from doing so by a stable alliance relationship with the 
United States that offered better security for them than WMD. This is 
something the United States has been doing right and should keep doing 
right; later I will return to this point, because I have some concerns 
about the health of our alliances and partnerships.
    Other nations have foregone WMD as part of a disarmament agreement 
like the Nuclear Nonproliferation Treaty that ensures them that if they 
forego WMD, their neighbors will also. If disarmament regimes can be 
strengthened and updated so they offer credible protection--Arnie 
Kanter will indicate later how this might be done for the NPT--they too 
can play a vital role in CP.
    When dissuasion and disarmament fail and a nation heads down the 
road to WMD acquisition, focused diplomacy by the United States can 
sometime reverse its course. Recent decades give many examples: 
Ukraine, Kazakhstan, and Belarus after the collapse of the Soviet 
Union; South Korea and Taiwan in the 1980s; Argentina and Brazil in the 
1990s; perhaps Libya in recent years.
    Some proliferators cannot be turned back. At that point our 
approach must be to deny them the means to make WMD: keeping the worst 
weapons out of the hands of the worst people, to paraphrase President 
Bush. Export controls, covert action, the new Proliferation Security 
Initiative (PSI), and the highly successful Nunn-Lugar program all 
contribute to the strategy of denial.
    Sometimes dissuasion, disarmament, diplomacy, and denial don't 
work, and despite our best efforts proliferation occurs. It was 
important to me during the time I served in the Defense Department that 
U.S. efforts to counter WMD not end when nonproliferation had failed, 
and that is one reason we coined the word ``counterproliferation''. At 
that point we need to offer protection to our forces, people, and 
allies against use of WMD. Elimination of hair-trigger alert postures, 
improved permissive action link (PAL) type technology, and other 
defusing measures can reduce the chances of accidental or unauthorized 
use of WMD--from Russia, for example, or between India and Pakistan. 
With respect to deliberate use, the United States should continue its 
current policy of threatening ``overwhelming and devastating'' 
retaliation against anyone who uses nuclear, chemical, or biological 
weapons against us, since in at least some cases deterrence might be 
effective. Where deterrence fails, defenses--ranging from chemical 
suits, inhalation masks, and vaccines to ballistic missile defense 
(BMD)--are needed. Finally, where the risk of use of WMD is imminent, 
preemptive destruction of hostile WMD might be a necessary last resort.
    Mr. Chairman and Members of the Committee: dissuasion, disarmament, 
diplomacy, denial, defusing, deterrence, defenses, destruction--what 
the Department of Defense calls the ``8 D's,'' are the tools of a 
comprehensive counterproliferation policy. Besides being an easy jog to 
the memory, the 8 D's are a reminder that there is no silver bullet for 
counterproliferation--not preemption (destruction), not arms control 
(disarmament), nor any other single tool. From listening to the public 
debate one might come to believe that one of these tools holds the key 
to protection against proliferation. But the dynamics driving 
proliferation in different countries are different enough that no 
single label or doctrine can cover them all. One might also infer from 
the public debate that the 8 D's are competing, alternative 
``doctrines.'' In fact we need them all.
Ingredients of a Needed Overhaul of Counterproliferation
    Today a CP ``hawk'' should be trying to strengthen all tools in the 
toolbox. Many of them are in need of fundamental overhaul. One problem 
is that some date to the Cold War, when counterproliferation was a ``B 
list'' problem compared to the ``A list'' confrontation with the Soviet 
Union. Another problem is that we have not heeded a lesson of the 
attacks of 9/11: counterproliferation and counterterrorism are 
inseparable in the 21st century. As I indicated when I appeared before 
you to discuss the North Korean nuclear crisis, we must be concerned 
not only about what Kim Jong Il might do with nuclear weapons he 
obtains from the plutonium he is reprocessing, but also about the other 
hands into which North Korea's nukes might some day fall--either 
through sale or in the chaos of a collapse of the North Korean regime. 
The half-life of plutonium 239 is 24,400 years; surely the North Korean 
regime will not last that long. Today's proliferation threat is 
tomorrow's catastrophic terrorism threat. Who among us would not give a 
great deal now to return to the 1980s and stop the Pakistani nuclear 
program, which might be ``talibanized'' sometime in the future, in a 
nightmare scenario? 9/11 should have caused us to overhaul our approach 
to counterproliferation as fundamentally as our approach to 
counterterrorism. But so far the ``worst people'' have gotten more 
attention than the ``worst weapons.''
    The counterproliferation hawk's agenda would have six priorities, 
which together cover all of the ``8 D's.''
    1. Strengthen alliances and partnerships. I indicated earlier that 
the prospect of being embedded in a stable security relationship with 
the United States has been critical to preventing proliferation in such 
countries as South Korea, Turkey, Taiwan, and Ukraine. This 
underappreciated benefit of America's security partnerships is another 
reason to avoid the temptation to make a virtue of an Iraq war 
necessity, the so-called ``coalition of the willing.'' Compared to 
standing partnerships and alliances, such coalitions do not serve U.S. 
interests well. Alliance partners train together to interoperate, so 
when they go to war they are not only willing but able to make a 
contribution to combined operations. Alliance partners routinely 
exchange threat assessments, making them more likely--not certain, to 
be sure, but more likely--to share our view when we believe use of 
force is necessary. And finally, alliance partners stably tied to the 
U.S. for their defense are unlikely to adopt a drastic, purely national 
approach to their defense like acquisition of WMD. For all these 
reasons, we should reject the notion that the United States can operate 
effectively through ``coalitions of the willing'' and use that concept 
only as a last resort when we have no success in leading our allies in 
our direction.
    2. Expand the scale and scope of Nunn-Lugar. Nunn-Lugar is now 
recognized to be not just a DOD program focused on the former Soviet 
Union, the way it began a dozen years ago, but a novel approach to 
eliminating WMD of wide applicability. At the time the United States 
formed a coalition against al Qaeda after 9/11, it should have formed a 
parallel coalition against WMD based on the Nunn-Lugar approach. In 
fact, such a Coalition Against WMD Terrorism was proposed at the time 
by none other than Senators Lugar and Nunn. The United States missed a 
major opportunity to transform counterproliferation while it had the 
attention and sympathies of the world.
    It is not too late to expand the scale and scope of Nunn-Lugar. The 
expansion would plan for and fund: the final and complete safeguarding 
of all former Soviet fissile materials, in weapons and non-weapons 
forms; bolder inroads into former Soviet biological and chemical 
stockpiles and facilities; collection of all significant caches of 
highly enriched uranium worldwide, eliminating these ``sleeper cells'' 
of nuclear terrorism; complete and verifiable elimination of WMD 
programs in Iraq, Libya, Iran, and North Korea as and when 
circumstances permit; promulgation and adoption of world-class 
standards for inventory control, safety, and security for all weapons 
and weapons-usable materials; strengthening border and export controls; 
and devising cooperative international responses (NEST teams, 
radiological public health measures, forensics, and so on) in the event 
of an incident of nuclear terrorism.
    As you have noted, Mr. Chairman, Nunn-Lugar is much praised but 
little funded in Washington and other capitals. Here in Washington 
there are tenacious opponents in Congress and even in the 
administration, despite the fact that President Bush has voiced his 
support for the program.
    3. Update and upgrade the Nuclear Nonproliferation Treaty. The NPT 
is sometimes disparaged because, it is said, the ``bad guys'' can 
ignore it with impunity (since it has inadequate verification and 
enforcement provisions) and the ``good guys'' would be good with or 
without an agreement. This contention is wrong for two reasons.
    First, the world does not divide neatly into ``good guys'' and 
``bad guys'' in regard to proliferation behavior: there is a 
substantial ``in-between'' category. This group has been represented 
over time by Ukraine, Kazakhstan, and Belarus (which chose to forsake 
the nuclear weapons they inherited from the Soviet Union); Argentina 
and Brazil (which mutually agreed to give up their nuclear programs); 
Taiwan and South Korea (which chose U.S. protection over nuclear 
weapons); and South Africa (which changed regimes and thus its sense of 
external threat). In all these cases, the allure of greater 
international acceptance if they abandoned their nuclear ambitions and 
signed the NPT was one of the deciding factors.
    Secondly, it is important to note that agreements like the NPT are, 
in fact, useful even in dealing with the ``bad guys'' in an indirect 
way. When it becomes necessary for the United States to lead action 
against the rogues, the international consensus against WMD embodied in 
arms control agreements provides a framework for the United States to 
marshal the support of other nations.
    While the NPT has great value in its current form, its provisions 
can and should be strengthened. One problem is that the concept of a 
so-called ``peaceful atom,'' dating to the 1960s when the NPT was 
negotiated, constitutes a huge loophole in the regime that must be 
closed. Bill Perry has mentioned this problem, and Arnie Kanter will 
cover it in more detail. A second problem with the NPT is the 
weaknesses of its verification and enforcement provisions, which need 
to be addressed.
    Arms control plays a limited role in the counterproliferation 
toolbox. But in this it is not different from all the other tools. Each 
tool has its limitations, but also its place. The United States should 
be taking the lead in fixing the NPT, not in disparaging it.
    4. Make counterproliferation an integral part of Pentagon 
Transformation. In the 1990s the term ``counterproliferation'' was 
coined in the Pentagon to signify that contending with WMD was an 
important DOD mission in the post-Cold War world. A number of 
counterproliferation programs were created within DOD to try to focus 
research, development, and acquisition on producing non-nuclear 
counters to WMD on the battlefield. Nuclear retaliation for use of WMD 
against U.S. troops was always an option, but not all opponents will 
necessarily be deterred in this way, and in the event of WMD use 
against us the President deserves better options than firing U.S. 
nuclear weapons.
    Over time, the counterproliferation programs were expanded to 
protecting rear areas--ports and airfields in the theater of war--
against chemical and biological weapons attack. Subsequently, the 
technologies for protecting allied rear areas were recognized to be 
applicable to protection of the U.S. homeland from WMD attack. Thus, by 
9/11, DOD was recognized as the lead agency in the federal government 
for developing and fielding technology for countering WMD wielded by 
both state and non-state actors, both on foreign battlefields and on 
U.S. territory. Examples of counterproliferation programs, both 
research and acquisition, were chemical and biological warning sensors, 
improved vaccines against bioattack, individual and collective 
protective coverings, special munitions for attacking and neutralizing 
enemy WMD, radiochemical forensics, and active defenses such as 
ballistic missile defense.
    Today the Pentagon is quite rightly devoting a portion of its 
growing budget to ``transforming'' the military to anticipate future 
threats and field dramatically new technologies. But the core of the 
effort remains long-range precision strike, close integration of 
intelligence information with operations, and closer working of Army, 
Navy, and Air Force units together in ``joint'' operations. These 
worthy transformation goals for conventional warfare have not been 
matched by any comparable counter-WMD emphasis. DOD's 
counterproliferation programs remain small and scattered among the 
Services, OSD, ``joint'' program offices, and the Defense Threat 
Reduction Agency. Excluding missile defense, these programs amount to 
only a few billion out of the $400 billion defense budget, far too 
small a fraction given the importance of the mission. 
Counterproliferation needs more resources and a clearer management 
structure in DOD.
    5. Increase focus on WMD terrorism within the Homeland Security 
program. A similar observation can be made about the priority given to 
WMD in the new homeland security agencies and budget. If the worst kind 
of terrorism imaginable is WMD terrorism, why is so small a fraction of 
the new homeland security program devoted to innovative efforts to 
prevent and respond to WMD terrorism?
    6. Overhaul WMD Intelligence: The Specter of Policymaking in the 
Dark. No policy tool--neither preemptive destruction, nor disarmament 
arms control, nor missile defense, nor denial--can be effective if the 
existence and nature of WMD efforts is unknown or imprecise.
    Secretary of Defense Donald Rumsfeld became convinced in the course 
of his work on ballistic missile proliferation before he took office 
that adequate intelligence on WMD programs is unlikely to be present in 
most cases. Given the stakes, he concluded, the U.S. must assume the 
worst in formulating its policy responses. This logic, encapsulated in 
the maxim ``absence of evidence [of WMD] is not evidence of absence,'' 
was the main intellectual argument in the Rumsfeld Commission report 
leading to the deployment of a National Missile Defense. According to 
this maxim, intelligence regarding the timetable for the development of 
an intercontinental ballistic missile threat originating in Iran or 
North Korea was uncertain enough that it was deemed imprudent for the 
United States merely to be prepared to deploy a missile defense within 
a few years (the Clinton administration policy), but instead necessary 
to undertake deployment immediately.
    I myself applied the same logic to the need for a preemptive war in 
Iraq. I believed it was safer to assume Saddam Hussein was trying to 
fulfill his long-demonstrated quest for WMD than to interpret the 
scanty intelligence available as evidence of a scanty WMD program. I 
still believe my judgment to support the invasion of Iraq was sound on 
the basis of the information available at the time. But we now know 
that the overall picture that information painted was incorrect.
    The matter of pre-war intelligence on Iraq's WMD is the subject of 
several ongoing inquiries, and my purpose in raising it is not to 
anticipate their results but to point to the larger issue of how to 
improve WMD intelligence in general.
    WMD activities are inherently difficult to monitor. It is 
comparatively easy to monitor the size and disposition of armies, the 
numbers and types of conventional weaponry like tanks and aircraft, and 
even the operational doctrines and plans of military establishments 
(since these generally need to be rehearsed to be effective, and 
exercises and training can be monitored). By their nature, WMD 
concentrate destructive power in small packages and tight groups. Both 
the manufacturing of chemical and above all biological weapons can take 
place in small-scale facilities. The plutonium route to nuclear weapons 
requires reactors and reprocessing facilities that are large and 
relatively conspicuous, but the uranium route can be pursued in 
facilities that are modest in size and lack distinctive tell-tale 
external features.
    A profound question bearing upon all of the 8 D's is therefore 
whether adequate intelligence is likely to be available to make any of 
them effective; or, alternatively, whether WMD spread is by its nature 
too difficult to monitor. If the latter is true, the world is doomed to 
a perpetual situation reminiscent of the ``missile gap'' of the 1950s, 
where uncertainties outweigh certainties and policymaking is forced 
into worst-case scenario mode.
    The uncertainties of the 1950s missile gap were substantially 
dispelled by the invention of satellite reconnaissance. The Soviet 
Union's missile silo construction and flight tests were visible from 
space. Today, there are some emerging intelligence technologies that 
will potentially make a substantial contribution to the collection of 
quality intelligence on WMD. They are ``close-in'' technologies as 
opposed to ``from-the-outside-looking-in'' like satellite photography. 
They are described in rough outline in an article I wrote for 
Technology in Society, which will be published soon and which I have 
appended to this statement.
    But no technology in the offing holds the promise of lifting the 
veil of WMD activities completely the way satellite photography lifted 
the veil from the Soviet Union's nuclear missile and bomber programs. 
Accurate intelligence on WMD would therefore be enhanced by two 
additional ingredients that are matters of policy, not technology.
    One ingredient is active cooperation by the parties under 
surveillance. Just as the Soviet Union allowed overflight of its 
territory by satellites, governments around the world will have to 
allow greater access to their territory, facilities, and scientists if 
there is to be any kind of accurate underpinning of 
counterproliferation. At a minimum, governments that wish to avoid 
suspicion (and thus coercion and even preemptive attack) will need to 
allow the kind of access promised to U.N. inspectors in Iraq before the 
2003 war. Access involves the ability to inspect facilities by 
surprise, take material samples for forensic analysis, install 
monitoring equipment, and other physical means. It must be complemented 
by required data declarations, document searches, and interviews of 
scientists. These are tall orders, since they involve compromises with 
sovereignty and legitimate military secrecy for the nations inspected, 
but they are the only way North Korea's WMD ambitions will be 
verifiably eliminated, or Iran's nuclear power activities fully 
safeguarded.
    The second ingredient must be the shifting of the burden of proof 
from the international community to the party under suspicion. To make 
an inspection system of carefully managed, if not totally unfettered, 
access based on active cooperation succeed, it must be the 
responsibility of the inspected party to dispel concerns, and not the 
responsibility of the United States or the international community to 
``prove'' that dangerous WMD activities are underway.
    Since proliferation is essentially a scientific activity, we also 
need to increase the number and level of technical training of the 
scientists and engineers in the intelligence community, as well as the 
linkages between the intelligence community and the broader scientific 
community.
    Finally, a great spur to quality and motivation of an intelligence 
effort is a clear link to action. Since 9/11, as you know, the 
counterterrorism intelligence effort has become more ``actionable.'' To 
simplify somewhat, the counterterrorism effort has moved from producing 
papers characterizing terrorist groups to supporting operations to 
interdict terrorists. As the counterproliferation efforts gets more 
operational through covert action, the PSI, expanded Nunn-Lugar, and 
verifying WMD elimination in Iraq, Libya, and hopefully elsewhere, the 
demand for ``actionable'' intelligence will increase. If history is any 
guide, the intensity and quality of collection and analysis by the 
intelligence community will increase in response.
    Taken together and with urgency, I am optimistic that such steps to 
overhaul our WMD-related intelligence effort can provide accurate 
intelligence to undergird all of the 8 D's.
    Mr. Chairman and Members of the Committee, the war on terrorism and 
the war on proliferation are strongly linked in the 21st century. But 
they are not identical. So far we are waging the war on terrorism much 
more vigorously than the war on WMD, attacking the ``worst people'' 
much more than the ``worst weapons.'' I hope this series of hearings 
results in an overhaul of counterproliferation that is as far-reaching 
as the overhaul of counterterrorism that began on 9/11, and that the 
measures I have recommended provide an agenda for action.

[Attachment.]

                    OVERHAULING COUNTERPROLIFERATION

                         (By Ashton B. Carter)

            THE NEED FOR AN OVERHAUL OF COUNTERPROLIFERATION

    President Bush has rightly proclaimed that keeping the worst 
weapons--weapons of mass destruction--out of the worst hands--state or 
non-state actors inclined to use them--is the highest security priority 
of the era. The policy response to this imperative, however, has been 
feeble in both the United States and around the world. One would have 
thought that the sequel of 9/11 would have been a comprehensive 
overhaul of the world's toolbox of counters to proliferation of WMD to 
state and non-state parties. But no such overhaul was undertaken.
    To be sure, there have been overhauls of parts of the U.S. 
government in response to 9/11, some of them--though not all--
constructive. A truly global coalition took the offensive against al 
Qaeda and other Islamic extremist terrorists, with great effect. An 
overhaul of the FBI, intended to redirect it from ``cracking the case'' 
of terrorist crimes already committed to preventing future terrorist 
attacks, is at least apparently underway. The redirected FBI domestic 
counterterrorism effort is, in turn, supposed to be coupled to the 
CIA's foreign intelligence in new ways through the ``Terrorism Threat 
Integration Center'' announced in President Bush's State of the Union 
Address in January, 2003, at last bridging the false divide between 
``domestic'' and ``foreign'' intelligence in a globalized world. A new 
cabinet Department of Homeland Security has been created, the first 
mission-oriented restructuring of the federal bureaucracy since the 
founding of the Department of Energy, and the most wide-ranging since 
the reorganization of the national security establishment following 
World War II. There has been a total overhaul of U.S. policy towards 
the Middle East; the results here are not yet in. There has been a 
reevaluation by the United States and its allies of their alliance 
relationships, mostly to the detriment of all. And most of all, there 
has been an acrimonious global debate over the application of one 
proliferation tool, preemption, to one WMD concern, Iraq's suspected 
chemical and biological programs and nuclear ambitions.
    What is remarkable about the post-9/11 response is how little of 
the overhaul has focused on WMD. There has been no international 
coalition to corral all the wherewithal of WMD terrorism--most 
importantly, nuclear weapons and fissile material--akin to the 
coalition against al Qaeda. There has yet been no reckoning with the 
evident fact that intelligence on Saddam Hussein's WMD arsenal differed 
markedly from what was found immediately after the war. The Department 
of Homeland Security, despite its new title, remains the amalgam of its 
diverse constituent bureaucracies rather than an engine of innovative 
policy. Its focus has been airline security and border control, not 
WMD. The preoccupation with preemption in Iraq has left the agenda of 
international cooperation against WMD--export controls and arms 
control--in the imperfect state in which it was found before 9/11.
    As if to highlight the feebleness of this response, North Korea and 
Iran are boldly moving forward with large-scale nuclear weapons 
programs, next to which Iraq's chemical and biological weapons 
ambitions pale in significance. The plutonium and highly enriched 
uranium made by these governments in coming years will be a threat to 
humanity not only in their hands, but for generations to come (the 
half-life of plutonium 239 is 24,000 years; that of uranium 235, 317 
million years). It is impossible to know whose hands these materials 
will fall into in future turns of the wheel of history. Proliferation 
to states and non-states are linked in the post-9/11 world. A 
proliferation and counterterrorism disaster of enormous proportions, 
and a massive failure of U.S. security policy, is in the making.
    Had the world taken the direct path from 9/11 to President Bush's 
imperative, what would the overhaul of counter-WMD policies have been? 
What should we do now to get back on the direct path?

                      NO SINGLE TOOL WILL SUFFICE

    The most conspicuous step the U.S. government took after 9/11 to 
fulfill President Bush's commitment to keeping the worst weapons out of 
the hands of the worst people was to conduct a preemptive war on Iraq's 
chemical and biological weapons programs. This was necessary to prevent 
a reversion over time to their previous level of malignant activity, 
since fatigue would inevitably have set in to the international 
community's efforts at inspections and sanctions, even assuming these 
could have been effective at containing Iraq's programs. But however 
justified, the war in Iraq involved the application of one tool--the 
last resort of preemptive military force--in one place, Iraq. This 
tool, while a necessary option of last resort, is hardly a general 
solution or ``doctrine'' since it fits so few of the relevant cases.
    Proliferation of weapons of mass destruction to states and sub-
state terrorists is a complex and varied phenomenon. It therefore calls 
for a policy approach that is multi-faceted. The stakes are great 
enough that no tool can be ignored.
    For one thing, the ``worst weapons'' come in degrees. Chemical 
weapons are not much worse, pound-for-pound or gallon-for-gallon, than 
ordinary explosives and deserve only the adjective ``bad,'' not 
``worst.'' Biological weapons are fearsome and becoming more so: 
advances in technology make the ``old'' types of bioweapons like 
anthrax prone to small-scale cottage industry fabrication that small 
groups of deviants--even individuals--can muster, while advanced 
bioscience will create new germs resistant to vaccines and antibiotics. 
The key to security against this type of ``worst'' weapon is public 
health detection and quick response, since bioagents take time to 
spread and kill.
    Time and medicine won't work, however, against a nuclear 
detonation. It has a deadly finality that puts a premium on prevention 
before the fact, not response after the fact. But here nature has been 
kind: nuclear weapons are made from two metals, plutonium and enriched 
uranium, that do not occur in nature. These materials must be man-made, 
and it turns out that in both cases the process of making them is 
comparatively expensive and difficult to conceal. So far, accomplishing 
it has only been within the reach of governments, not terrorist groups. 
The key to nuclear security is therefore to ensure that more 
governments don't make fissile materials, and that all governments that 
do make fissile materials keep them out of the hands of terrorists.
    If you dissect the notion of ``worst weapons,'' therefore, you find 
a somewhat more complex picture. Likewise if you unpack the idea of 
``worst people.''
    Terrorists are easy to include. In this category will figure not 
only organized and well-funded groups like al Qaeda, but small splinter 
groups of super-extremists, cults, and ultimately individuals as the 
destructive power of technology formerly reserved to nations becomes 
available to smaller and smaller groups. (The perpetrator of the 
anthrax mailings of October 2001 might have been a lone individual. The 
Aum Shinnkyo cult in Japan used sarin in the Tokyo subway and attempted 
release of anthrax spores.)
    But when it comes to governments, complexity enters. The most 
obvious category are the so-called rogue states that seem determined to 
get nuclear weapons to pose a direct threat to the United States and 
its interests--surely North Korea and Iran fill this bill today. They 
must be the object of intense U.S.-led international pressure to 
prevent them from making enriched uranium or plutonium and, failing 
that, military force that preempts their ambitions.
    But what about Ukraine, Kazakhstan, South Africa, Argentina, 
Brazil, Taiwan, South Korea, and a host of other nations that might 
today be nuclear powers--and thus potential sources of ``loose nukes'' 
for terrorists as well as a danger in themselves--but were turned back 
through U.S.-led efforts in the 1980s and 1990s? These efforts included 
addressing their legitimate security concerns through alliances and 
security agreements, denying them technology to make nuclear weapons, 
and applying the weight of international opprobrium for further spread 
of nuclear weapons embodied in the Nuclear Nonproliferation Treaty. 
Without this effort these borderline cases might have ended up in the 
``worst'' category.
    A third category is represented by all of the other countries on 
the globe--nearly two hundred of them--that have not made and are not 
seeking to make nuclear weapons. Powerful leading nations like Germany, 
Turkey, and Japan--far from rogues--have not gone nuclear despite their 
clear technical ability to do so. This fact should not be taken for 
granted. Our policy against WMD must include continuing to dissuade the 
great bulk of nations from resorting to this extreme. Doing so means 
maintaining stable and reliable alliances that these nations can depend 
upon (not just ``coalitions of the willing''), and using U.S. power to 
create an international climate of security and justice.
    These examples illustrate the complexity of the problem of WMD, but 
also the richness of the toolbox for combating them. This toolbox spans 
dissuasion, prevention, diplomacy, arms control, denial of access to 
critical technology and materials, defenses, deterrence, and, yes, 
preemption. All of these tools need to be buttressed with solid 
intelligence.
    What the U.S. should have done after the wake-up call of 9/11 is 
undertake a comprehensive overhaul of the entire toolbox for combating 
WMD. We would be much safer today if we had moved outside the one-tool, 
one-place tunnel-vision approach that characterized preemption in Iraq, 
however necessary that instance might have been.
 overhauling wmd intelligence: the specter of policymaking in the dark
    No policy instruments--neither preemption, nor arms control, nor 
missile defense, nor interdiction--can be effective if the existence 
and nature of WMD efforts is unknown or imprecise.
    Secretary of Defense Donald Rumsfeld became convinced in the course 
of his work on ballistic missile proliferation before he took office 
that adequate intelligence on WMD programs is unlikely to be present in 
most cases. Given the stakes, he concluded, the U.S. must assume the 
worst in formulating, its policy responses. This logic, encapsulated in 
the maxim ``absence of evidence [of WMD] is not evidence of absence,'' 
was the main intellectual argument in the influential Rumsfeld 
Commission report leading to the deployment of a National Missile 
Defense.\1\ According to this maxim, intelligence regarding the 
timetable for the development of an intercontinental ballistic missile 
threat originating in Iran or North Korea was uncertain enough that it 
was deemed insufficient for the United States to be prepared to deploy 
a missile defense within a few years (the Clinton administration 
policy), but instead necessary to undertake deployment immediately. 
Later, when Rumsfeld became Secretary of Defense, this same logic led 
the United States to preemptive war in Iraq: Better to assume Saddam 
Hussein was fulfilling his long-demonstrated quest for WMD than to 
interpret the scanty evidence available as evidence of a scanty WMD 
program (especially in view of Iraq's persistent and obvious 
concealment and deception efforts). At the time of this writing, 
evidence has not been found of the scale and scope of WMD activities 
that were widely suspected to be taking place in Iraq before the war. 
This disturbing circumstance underscores the difficulty of obtaining 
good intelligence on WMD.
---------------------------------------------------------------------------
    \1\ The Honorable Donald H. Rumsfeld, Chairman, Barry M. Blechman, 
Lee Butler, Richard L. Garwin, William R. Graham, William Schneider, 
Jr., Larry Welch, Paul D. Wolfowitz, R. James Woolsey Report of the 
Commission to Assess the Ballistic Missile Threat to the United States 
(Washington, D.C., July 15, 1998), 104th Congress.
---------------------------------------------------------------------------
    WMD activities are inherently difficult to monitor. It is 
comparatively easy to monitor the size and disposition of armies, the 
numbers and types of conventional weaponry like tanks and aircraft, and 
even the operational doctrines and plans of military establishments 
(since these generally need to be rehearsed to be effective, and 
exercises and training can be monitored). But by their nature WMD 
concentrate destructive power in small packages, and tight groups. The 
manufacturing of chemical and above all biological weapons can take 
place in small-scale facilities. The plutonium route to nuclear weapons 
requires reactors and reprocessing facilities that are inherently large 
and relatively conspicuous. But the uranium route can be pursued in 
facilities that are modest in size and lack distinctive tell-tale 
external features.
    A profound question affecting all of the tools in the counter-WMD 
toolbox is therefore whether adequate intelligence is likely to be 
available to make them effective; or, alternatively, whether WMD spread 
is inherently too difficult to monitor. If the latter is true, the 
world is doomed to a perpetual situation reminiscent of the ``missile 
gap'' of the 1950s, where uncertainties outweigh certainties and 
policymaking is forced into worst-case mode.
    The uncertainties of the 1950s missile gap were substantially 
dispelled by the invention of satellite reconnaissance. The Soviet 
Union's missile silo construction and flight tests were visible from 
space. Less often appreciated is that the Soviet Union also conducted 
these activities, in the main, openly and in strictly regimented 
patterns. Where the Soviet Union wished to practice deception, as in 
their biological weapons programs, they were largely successful. 
Satellite reconnaissance also depended on the Soviet Union's 
cooperation in an essential respect: maintaining the openness of space 
and the right of uncontested U.S. overflight of its territory.
    There are some intelligence technologies emerging that are going to 
make a substantial contribution to the collection of quality 
intelligence on WMD. They are ``close-in'' in nature, rather than 
``from-the-outside-looking-in'' like satellite photography. Many are 
forensic in nature. They involve, for example, taking material samples 
and analyzing them for traces of suspicious chemicals, biological 
material, or radionuclides. The samples can be taken from the air by 
aircraft (as with krypton 80 air sampling for evidence of spent nuclear 
fuel reprocessing) or from the ground (plucking a leaf from a bush, 
wiping a handkerchief across a countertop) overtly or covertly. From a 
distance, the spectrum of light transmitted through an effluent plume 
downwind of a smokestack or backscattered from a laser might reveal 
something about the composition of the plume and thus the activities 
underway within the building.
    Unattended ground sensor (UGS) with a variety of transducers 
(chemical, acoustic, seismic, radio-frequency, imaging, etc.) can be 
emplaced by hand or dropped covertly from unmanned aerial vehicles 
(UAVs). The UGS can have enough on-board data processing capability to 
require only low-bandwidth exfiltration of their data back to 
intelligence agencies. This low-bandwidth communication can, in turn, 
be made very difficult for the nation being spied upon to detect. 
Cellular telephone technology permits clusters of UGS to be networked. 
By combining the data from several networked UGS, it might be possible 
to reduce the rate of false alarms dramatically. UGS can even be made 
mobile by attaching them to robots, animals, or birds.
    Another lucrative technique is ``tagging,'' involving the covert 
placement of identifying features, transmitters, or chemical markers on 
objects destined for WMD laboratories or other facilities, and then 
monitoring the tag remotely or by close-in sample collection.
    Finally, there is a revolution underway in close-in signals 
intelligence, in which cell phones, laptop computers, local area 
networks, and other information infrastructure of a WMD program are 
penetrated and exploited.
    Miniaturization, as with micro-electro-mechanical (MEMS) devices, 
is making such close-in techniques easier. Because their use involves a 
covert dimension, these techniques are more highly classified than the 
techniques used for verifying superpower arms control agreements. 
Information from these specialized WMD-specific techniques can be 
combined with the usual types of intelligence from intercepted 
communications, defectors, and the occasional spy.
    Unfortunately, no technology in the offing appears to have the 
promise of lifting the veil of WMD activities the way satellite 
photography lifted the veil from the Soviet Union's nuclear missile and 
bomber programs. Accurate intelligence on WMD would therefore be 
enhanced by two additional ingredients that are matters of policy, not 
technology.
    One ingredient is active cooperation by the parties under 
surveillance. Just as the Soviet Union allowed overflight of its 
territory by satellites, governments around the world will have to 
allow greater access to their territory, facilities, and scientists if 
there is to be any kind of accurate underpinning of 
counterproliferation. At a minimum, governments that wish to avoid 
suspicion (and thus coercion and even preemptive attack) will need to 
allow the kind of access promised to U.N. inspectors in Iraq before the 
2003 war. Access involves the ability to inspect facilities by 
surprise, take material samples for forensic analysis, install 
monitoring equipment, and other physical means. It must be complemented 
by required data declarations, document searches, and interviews of 
scientists. These are tall orders, since they involve compromises with 
sovereignty and legitimate military secrecy for the nations inspected. 
But they are the only way North Korea's WMD ambitions will be 
verifiably eliminated, or Iran's nuclear power activities fully 
safeguarded.
    Accompanying the first ingredient must be a second: the shifting of 
the burden of proof from the international community to the party under 
suspicion. To make an inspection system of carefully managed, if not 
totally unfettered, access based on active cooperation succeed, it must 
be the responsibility of the inspected party to dispel concerns, and 
not the responsibility of the United States or the international 
community to ``prove'' that dangerous WMD activities are underway.
   a coalition against wmd terrorism: spreading nunn-lugar worldwide
    The U.S.-led coalition against terrorism formed after 9/11 has been 
directed almost single-mindedly against al Qaeda and other Islamist 
fundamentalist terrorists. A parallel coalition aimed at WMD terrorism 
should have been spearheaded by the United States after 9/11, 
capitalizing on the widespread sympathy around the world for the 
victims of the attacks on the United States. The United States missed a 
major opportunity to transform counterproliferation.
    Such a global coalition against WMD terrorism was in fact proposed 
by Senator Richard Lugar and former Senator Sam Nunn as the logical 
extension of the Nunn-Lugar program, which has successfully eliminated 
or safeguarded much of the former Soviet Union's WMD. Rather than 
seeking out and neutralizing cells of al Qaeda terrorists, the 
coalition against WMD terrorism would aim to eliminate all 
unsafeguarded ``cells'' of the wherewithal of WMD terrorism, especially 
fissile materials. It would also aspire to global membership, since all 
governments should share a deep common interest in preventing WMD from 
falling into non governmental hands.
    The report of a conference sponsored by the Nuclear Threat 
Initiative described the activities of such a coalition.\2\ For nuclear 
terrorism, the cooperative activities of the global coalition would 
include:
---------------------------------------------------------------------------
    \2\ Ashton B. Carter, Trip Report: Nunn-Lugar Sites in Russia, a 
memo to colleagues of the Preventive Defense Project (3 June 2002); and 
Ashton B. Carter, ``Throw the Net Worldwide.'' The Washington Post (12 
June 2002), A-31.

  <bullet> Establishing common, ``world-class'' standards for inventory 
        control, safety, and security for weapons and weapons-usable 
        materials--standards of the kind worked out between Russia and 
        the United States in the Nunn-Lugar program.
  <bullet> Establishing progressively stronger standards of 
        transparency, to demonstrate to others that standards are being 
        met.
  <bullet> Providing assistance to those who need help meeting the 
        Coalition's standards.
  <bullet> Cooperating to provide effective border and export controls 
        regarding nuclear materials.
  <bullet> Devising cooperative procedures to find and regain control 
        of bombs or fissile materials if they are lost or seized by 
        terrorists. One possibility is a Coalition version of the U.S. 
        Department of Energy's Nuclear Emergency Search Team (NEST)--a 
        ``global NEST.'' Another possibility is to agree to facilitate 
        deployment of national NEST teams, in the way that many nations 
        deploy canine search teams to earthquake sites to search for 
        survivors.
  <bullet> Planning and researching cooperative responses to a nuclear 
        or radiological explosion, such as mapping the contaminated 
        area, addressing mass casualties, administering public health 
        measures like iodine pills and cleaning up contaminated soil.
  <bullet> Cooperating on forensic radiochemical techniques to find the 
        source of a nuclear incident from its residue.

For bioterrorism, Nunn and Lugar envisioned the following Coalition 
activities:

  <bullet> Establishing common, ``world-class'' techniques for 
        safeguarding biological materials in preparation, handling, and 
        scientific use.
  <bullet> Developing public health surveillance methods on a global 
        scale to detect an incident of bioterrorism in its early 
        stages. Such methods would also provide important benefits in 
        combating infectious disease and improving global public 
        health.
  <bullet> Shaping normative standards for the conduct of scientific 
        practice in the area of biotechnology and microbiology, 
        including the possibility of making it a universal crime, 
        punishable under national laws, to make or assist the making of 
        bioweapons.
  <bullet> Cooperating in research on diagnosis, prophylaxis (e.g., 
        vaccines against bioagents), and treatment (e.g., antibiotics 
        and antivirals).
  <bullet> Cooperating in developing protective techniques like 
        inhalation masks and filtered ventilation systems.
  <bullet> Cooperating in developing techniques for decontaminating 
        buildings that have been attacked (as was needed in the Hart 
        Senate Office Building after anthrax-contaminated mail was sent 
        there).
  <bullet> Cooperating in forensic techniques for identifying the 
        perpetrators of a bioattack (as was needed in the analysis of 
        the anthrax mailings in the United States).

    While much of the momentum behind U.S. diplomacy in the wake of 9/
11 has dissipated through the passage of time and the war in Iraq, it 
is not too late for the United States to attempt to create a new 
framework for international cooperative action against WMD--a global 
coalition against WMD terrorism.

                       WMD AND HOMELAND SECURITY

    Besides striking at Islamist terrorists worldwide, the other main 
U.S, response to 9/11 has been the creation of a White House Office of 
Homeland Security (OHS) and a new Department of Homeland Security 
(DHS). In 1958, the shock of the Soviet launch of Sputnik led to the 
creation of the President's Science Advisory Committee, the Defense 
Advanced Research Projects Agency, the National Reconnaissance Office, 
and the National Aeronautics and Space Administration. These 
institutions in turn spurred new technologies, techniques, and policies 
to counter the Soviet strategic threat. A comparable spurt of 
innovative energy does not seem likely from the OHS and DHS, especially 
with respect to the worst type of terrorism--WMD terrorism.
    Little focus on WMD is apparent in the fledgling DHS. Its 
organization chart contains no overall office devoted to WMD terrorism, 
even though this is the most important kind of terrorism. Most of its 
energy to date has seemingly been devoted to merging the different 
traditions and bureaucracies of its constituent parts. In the main, 
these constituents are concerned with airline security, border control, 
and emergency response, not WMD. Some small offices concerned with WMD 
have been transferred to the new Department from other agencies, where 
they reside in a tiny ``Science and Technology'' Undersecretariat that 
disposes of only 2% of the DHS budget. But there is no evidence that 
this new bureaucracy, heralded as the most revolutionary governmental 
reconfiguration since the late 1940s, will revolutionize 
counterproliferation..
    Meanwhile, the bureaucratic exertions associated with the new 
Department have entirely eclipsed the White House OHS. OHS is supposed 
to orchestrate the investments of the major departments that already 
have responsibility and technical capability in WMD--DHS, DOD, the 
Department of Energy, the Department of Health and Human Services, the 
Intelligence Community, and others--to create new capabilities, new 
strategies, and new technologies for counterproliferation.\3\ But in 
the absence of a strong White House hand as a consequence of the 
withering of OHS, these departments will revert to fitting countering 
WMD in at the margins of their traditional activities.
---------------------------------------------------------------------------
    \3\ Ashton B. Carter, ``Roles for the White House and the New 
Department.'' Testimony on the Relationship between a Department of 
Homeland Security and the Intelligence Community before the 
Governmental Affairs Committee, U.S. Senate, 26 June 2002. Footnote to 
ABC Senate Gov Affairs Testimony.
---------------------------------------------------------------------------
                  COUNTERPROLIFERATION IN THE PENTAGON

    One department besides DHS that has important capabilities and 
responsibilities for countering WMD, and especially for the development 
of new technology, is the Department of Defense. The term 
``counterproliferation'' was coined by former Secretary of Defense Les 
Aspin to signify that contending with WMD was an important DOD mission 
in the post-Cold War world.\4\ In the 1990s, a number of 
counterproliferation programs were created within DOD to try to focus 
research, development, and acquisition on producing non-nuclear 
counters to WMD on the battlefield. Over time the programs expanded to 
protecting rear areas--ports and airfields in the theater of war--
against chemical and biological weapons attack. Next, the technologies 
for protecting allied rear areas were recognized to be applicable to 
protection of the U.S. homeland from WMD attack. Thus, by 9/11 DOD was 
recognized as a lead agency in the U.S. for developing and fielding 
technology for countering WMD wielded by both state and non-state 
actors, both on foreign battlefields and on U.S. territory. Yet DOD's 
counterproliferation programs remained small and fragmented. The great 
bulk of DOD's post-Cold War investments in new technology ignored WMD. 
Under the 1990s slogan ``revolution in military affairs,'' most of the 
innovative thinking and spending in DOD was directed at perfecting 
conventional joint military operations.
---------------------------------------------------------------------------
    \4\ Footnote to Aspin, Remarks by the Honorable Les Aspin, 
Secretary of Defense, National Academy of Sciences Committee on 
International Security and Arms Control, December 7, 1993, speech.
---------------------------------------------------------------------------
    Surprisingly little changed in DOD after 9/11. Secretary of Defense 
Donald Rumsfeld has proclaimed ``transformation'' to be the successor 
to ``revolution in military affairs.'' But the core of the effort is 
long-range precision attack, close integration of intelligence 
information with operations, and closer working of Army, Navy, and Air 
Force together in ``joint'' operations. These worthy transformation 
goals have not been matched by any comparable counter-WMD emphasis. 
DOD's counterproliferation programs remain small and scattered. 
Excluding missile defense, these programs amount to only a few billion 
out of the $400 billion defense budget, far too small a fraction given 
the importance of the mission.

                     U.S. NUCLEAR WEAPONS PROGRAMS

    An important question for counterproliferation is whether U.S. 
deployments and doctrine for its own nuclear arsenal influence the 
spread of WMD elsewhere in the world. In the main, the influence is 
marginal.
    It is unlikely that Pyongyang's or Teheran's calculations, let 
alone al Qaeda's, are significantly dependent on whether the United 
States has 6000, 3500, or 2200 deployed strategic weapons (these are 
the numbers permitted under the last three rounds of U.S.-Russian 
nuclear arms control), retains tactical nuclear weapons deployed in 
Europe, researches or develops earth-penetrating or other new types of 
nuclear weapons, or has a doctrine that either threatens or foreswears 
nuclear retaliation if chemical or biological weapons are used against 
the U.S. or its allies. The fear that the United States would or could 
use nuclear weapons against them if they used WMD is a useful component 
of deterrence against proliferating governments. But the United States 
has another tool of deterrence besides nuclear weapons--its unmatched 
conventional military power. Terrorists, for their part, are likely not 
deterred by threats of punishment at all.
    On the other hand, countering North Korean and Iranian WMD 
ambitions can be assisted with the support of the international 
community. Defeating al Qaeda positively depends upon cooperation by 
foreign governments in intelligence and law enforcement; in this area a 
unilateral option is not available. International support for these 
U.S.-led efforts against WMD is influenced, again perhaps only at the 
margin, by U.S. nuclear policy. To the extent that the United States 
suggests a growing reliance of its own on nuclear weapons for security, 
it makes the job of marshaling international cooperation in a coalition 
against WMD terrorism or an overhaul of WMD arms control more 
difficult.
    These marginal costs of emphasizing the role of U.S. nuclear 
weapons in its own security should therefore be weighed against the 
marginal benefits of changes in the U.S. nuclear posture. Recently the 
United States has embarked on three changes that do not meet this test.
    One change is to combine nuclear weapons, missile defenses, and 
long-range conventional weapons into a ``new Triad,'' replacing the 
traditional nuclear ``Triad'' of land-based missiles, submarine-based 
missiles, and strategic bombers. This construct accomplishes little, 
but it has the detrimental and misleading effect of suggesting to the 
world that U.S. presidents will regard use of nuclear weapons and use 
of conventional weapons as differing in degree rather than in kind.
    Another change with little benefit is to accelerate the schedule 
for the resumption of underground nuclear testing. The new schedule 
allows weapons scientists to test at the earliest time they can be 
ready to take useful data from the detonation. But given the stakes 
involved, the schedule for resuming underground testing should instead 
be driven by considerations of military necessity, and here the case 
for the change has not been made.
    The third change is to embark on research and development of a new 
type of earth-penetrating nuclear warhead, ostensibly to destroy deeply 
buried WMD facilities. Once again, the military rationale for this move 
is not strong, since the United States already has earth-penetrating 
nuclear weapons and the focus on munitions begs the larger question 
problem of finding such targets in the first place. The political 
enormity (and much of the fallout contamination) of a decision to cross 
the nuclear divide would not be much reduced by changing the design of 
the nuclear weapon. Once again, the benefit of the proposed innovation 
in U.S. nuclear programs is marginal.
    The better U.S. military strategy would be to seek to widen and 
prolong the huge gap between U.S. conventional military capabilities 
and those of any other nation, and to use transformational technology 
to narrow, not widen, the range of circumstances in which this nation 
would resort to use of nuclear weapons.

                 STRENGTHENING THE ROLE OF ARMS CONTROL

    Another tool is arms control regimes like the Nuclear 
Nonproliferation Treaty (NPT), the Chemical Weapons Convention (CWC), 
and the Biological Weapons Convention (BWC). These are sometime 
disparaged as useless tools, since, the argument goes, the ``rogues'' 
ignore them with impunity (since they have inadequate verification and 
enforcement provisions) and the rest of the ``good'' countries are 
unaffected by them. But this argument is wrong for two reasons.
    First, the world does not consist of ``rogue'' and ``good'' states 
as regards proliferation behavior: there is an important ``in-between'' 
category. This category has been represented over time by Ukraine, 
Kazakhstan, and Belarus (which chose to forsake the nuclear weapons 
they inherited from the Soviet Union); Argentina and Brazil (which 
mutually agreed to give up their nuclear programs); Taiwan and South 
Korea (which chose U.S. protection over nuclear weapons); and South 
Africa (which changed regimes and thus sense of external threat). In 
all these cases, the allure of greater international acceptance if they 
abandoned their nuclear ambitions was one important factor in their 
decision.
    The second reason those who disparage counterproliferation arms 
control are wrong is that the agreements are, in fact, useful even in 
dealing with the ``rogues'': When it comes time for the United States 
to lead action against the rogues, the international consensus against 
WMD embodied in the NPT, CWC, and BWC helps the United States to 
marshal the support of other nations in confronting the rogue.
    Therefore the arms control regimes have some value even if their 
provisions are far from perfect. But these provisions can be 
strengthened, and the U.S. should be leading the way to strengthen them 
rather than disparaging them. One problem affecting the NPT is dual use 
of nuclear technology. The ``peaceful atom,'' dating to the 1960s when 
the NPT was negotiated, constitutes a huge loophole in the regime that 
must be closed. Non-nuclear states are today permitted by the NPT to 
have closed nuclear fuel cycles. They may enrich uranium to make 
reactor fuel, and they may reprocess spent reactor fuel to extract 
plutonium--provided they declare their activities to the IAEA and allow 
the IAEA to confirm the declaration. But possession of enrichment and 
reprocessing facilities positions a country dangerously close to 
achieving nuclear weapons capability. Iran is an important case in 
point. In the future, nonnuclear weapons states should be obliged to 
import enriched fuel from supplier states and ship spent fuel back to 
the suppliers, foregoing both enrichment and reprocessing. In return, 
the supplying nations would be obliged to provide fuel services on an 
economically fair basis, which will invariably be cheaper for the 
importer than building their own facilities.
    Verification and enforcement provisions of the arms control 
agreements should also be strengthened. This, like improving 
intelligence, will not be an easy task given the inherent ease of 
concealment of WMD programs. But inspections called for by arms control 
agreements, and the international pressure shifting the burden of proof 
to potential proliferators, can strengthen intelligence, as noted 
above. And accurate intelligence is as necessary to all the other tools 
of counterproliferation as it is to arms control. Arms control plays a 
limited role in the toolbox. But in this it is not different from all 
the other tools, each of which has its limitations, but each its place.

     CONCLUSION: OVERHAUL COUNTERPROLIFERATION BEFORE IT'S TOO LATE

    In stating that keeping the worst weapons out of the hands of the 
worst people is the highest security imperative for the world in this 
era, President Bush has made the appropriate call to action. But to 
date the action itself has been lacking when it comes to policies 
specifically designed to keep WMD out of hostile hands, either nation-
states or terrorists. After 9/11 the United States regretted that it 
had not taken steps to overhaul its counterterrorism capabilities years 
earlier, steps that seemed tragically obvious after the World Trade 
Center towers were gone. An overhaul of counterproliferation is needed 
now. It will be unfortunate if the overhaul is undertaken only after 
the need for it is made tragically obvious by an incident of mass 
destruction.

    The Chairman. Thank you very much, Secretary Carter, for 
the very comprehensive statement.
    Mr. Arnie Kanter.

 OPENING STATEMENT OF HON. ARNOLD KANTER, SENIOR FELLOW, FORUM 
 FOR INTERNATIONAL POLICY AND PRINCIPAL, THE SCOWCROFT GROUP, 
                         WASHINGTON, DC

    Mr. Kanter. Mr. Chairman, Senator Nelson, I appreciate this 
opportunity to join Secretary Perry and Secretary Carter in 
appearing before you this morning. And Mr. Chairman I want to 
thank you very much for your generous comments. I appreciate 
them.
    I also want to take this opportunity on behalf of Brent 
Scowcroft, to express his regrets that he couldn't be here 
today as he is unavoidably out of town. And he asked me to pass 
along his appreciation to the chairman of the committee for 
these hearings and his conviction that they could not be more 
important or more timely.
    I have submitted a statement for the record and I would 
like to take this opportunity to summarize some of the main 
points.
    My main purpose today is to present a way of thinking about 
the problem of nuclear proliferation, and to suggest some 
elements of a comprehensive strategy for combating that nuclear 
threat.
    I am sure that you are under no such illusions, it will 
quickly become apparent that I don't have all the answers, in 
fact, I don't even have very many of them.
    But I do hope that I will be able to contribute to efforts 
to move the debate beyond familiar recitations about how 
serious this problem is, to an examination of strategic 
approaches and concrete measures to deal with the problem.
    Let me begin by repeating what Bill Perry and Ash Carter 
have already said, but which I believe cannot be said often 
enough.
    There is no one single approach. There is no one policy 
instrument that can solve the nuclear proliferation problem by 
itself.
    Moreover, the search for such a silver bullet will prove 
futile or perhaps worse.
    But having said that, let me add two other points. First, 
any set of measures is likely to be more effective if the 
constituent elements are fitted together and synchronized with 
one another to form a coherent multifaceted strategy.
    Second, because the nuclear proliferation threat itself is 
diverse rather than homogeneous, the strategies to combat 
nuclear proliferation likewise should be differentiated.
    Simply stated, I believe we need a strategy that is not 
only comprehensive, but one whose respective elements are 
focused on particular parts of the overall threat.
    Let me try to explain what I mean by delineating some 
categories of policy responses. In doing so, it is convenient, 
although I readily admit hardly original, to think about the 
nuclear proliferation problem as a matter of supply and demand.
    On the demand side, I think it is useful to distinguish 
among three different kinds. One kind is the demand for a 
nuclear weapons capability per se. The source of this demand is 
what I call the ``nuclear weapon wanna-bes,'' the bad guys who 
usually are foremost in our minds when we talk about the 
problem of nuclear proliferation.
    A second source of demand is for Nuclear power generation 
to meet energy needs. These are the ``nuclear power wanna-bes'' 
who do not harbor any secret ambitions to acquire nuclear 
weapons.
    Finally, there is an imprecise middle category composed of 
those who are explicitly pursuing nuclear power capabilities, 
but are doing so not only to meet energy requirements, but also 
to create the option of nuclear weapons sometime in the future.
    On the supply side, I also think it is useful to 
distinguish among three categories for policy proposes. One 
kind of supply is the supply of nuclear weapons technology, 
equipment, material and know-how.
    Simply put, this is about the intentional provision of a 
nuclear weapons capability, and until recently, A.Q. Khan was 
its poster child. It is also the kind of supply problem that 
has been the major, if not predominant, focus of our non-
proliferation efforts.
    A second kind of supply is represented by the stores of 
dispersed nuclear warheads, and the stockpiles of inadequately 
secured nuclear weapons material. Much, but I want to 
emphasize, not all of which is concentrated in Russia. This is 
a point to which I will return.
    This is the ``loose nukes'' problem, one that the rise of 
global terrorism has turned into an all-too-plausible 
nightmare. The Nunn-Lugar and related programs are designed to 
address this part of the supply problem.
    A third kind of supply is the inadvertent but inescapable 
byproduct of civilian nuclear power programs, notably those 
activities related to enrichment technology, and to the 
production, storage and reprocessing of nuclear fuel.
    Because the fact is that attributes that are intrinsic to 
the closed nuclear fuel cycle constitute an ongoing potential 
to produce material for nuclear weapons.
    Now this is an aspect of nuclear proliferation that we have 
recognized and worried about for some time, but I believe we're 
just beginning to address in ways that hold some promise of 
being effective. Now I will offer some specific suggestions 
about how to address this part of the problem in a moment.
    The range of complementary, but distinct, tasks that a 
comprehensive nuclear non-proliferation policy must accomplish 
correspond to these multiple sources of demand and supply. But 
reduced to their essence, I see three major tasks.
    One, to actively frustrate the ambitions of ``nuclear 
weapon wanna-bes'' by denying them access to critical 
technology, equipment, and materials.
    Two, to construct an effective network of effective 
sanctions and powerful positive incentives that combine to 
present ``nuclear power wanna-bes'' with an all but 
irresistible choice to abandon their nuclear ambitions.
    Three, to put in place both incentives and barriers that 
effectively discourage not only ``nuclear power wanna-bes,'' 
but also countries in that undecided middle category from 
seriously considering, much less pursuing, a nuclear weapons 
option.
    I do not pretend to have a complete blueprint or a detailed 
road map for how the accomplish these three tasks. What follows 
are some illustrations and observations.
    In the interest of time, I will not detail the reasons why, 
but on the whole, I believe that the challenge of denying 
determined ``nuclear weapon wanna-bes'' access to the things 
they need has received the most policy attention in our non-
proliferation policy.
    And recognizing that there is a great deal more to be done, 
this part of our non-proliferation policy also probably is the 
furthest advanced of any of the elements of a comprehensive 
strategy.
    On the subject of loose nukes, a great deal has already 
been written and spoken, and so I am going to confine myself to 
making three points.
    First, all roads lead back to Russia when we talk about 
combating the spread of nuclear weapons in the sense that no 
policy can hope to be successful if it does not succeed in 
Russia and it does not succeed with Russia. As a corollary, no 
policy can succeed if we do not have a relationship with Russia 
that encourages real cooperation and real accountability on 
this issue.
    Second, adequate resources may not make all of the 
difference, but inadequate resources are a virtual guarantee of 
failure. Money is central, but this is not just a matter of 
money. The Nunn-Lugar program needs to be treated consistently 
as a high priority both by the administration and the Congress 
rather than just another laudable program that receives 
intermittent attention and some share of discretionary 
resources.
    Third, this is not just a problem with Russia and it is not 
just a problem in Russia. While it is true that in quantitative 
terms, most of the loose nuke problem is located in Russia, not 
all of it is. From research reactors in Belgrade, to Urenco 
[Uranium Enrichment Services Worldwide] designs for an A.Q. 
Khan to steal, the loose nukes threat is surprisingly 
dispersed. I think two implications follow.
    One is that the Nunn-Lugar and related programs need to be 
truly international rather than FSU-centric, both in concept 
and execution.
    The other implication, underscoring a point that Secretary 
Perry has already made, is that efforts to deal with loose 
nukes problem benefits immensely from being a multilateral 
rather than a predominantly or exclusively U.S. responsibility.
    And obviously the benefits of international cooperation 
extend way beyond the loose nukes problem. As the success of 
the Proliferation Security Initiative and I think especially 
the break through on Libya made clear, it is hard to imagine 
virtually any aspect of a nuclear non-proliferation policy that 
would not be more effective if it has the active cooperation of 
other governments. Indeed, it is easy to imagine many 
initiatives that could only be successful with such 
cooperation.
    The final problem that I want to address is the one posed 
by the ``nuclear power wanna-bes.'' Specifically, I want to 
focus on the challenge of encouraging safe civilian nuclear 
power to meet global energy needs and at the same time 
discouraging any temptation, now or in the future, to use such 
programs to create a nuclear weapons capability.
    As I noted earlier, developing civilian nuclear power to 
meet energy requirements can pose intrinsic and serious nuclear 
proliferation risks. This is neither a new problem nor one that 
has been only recently identified.
    But in my opinion, it has not received the attention it 
warrants, particularly in the context of fashioning a 
comprehensive and coherent policy.
    Recall that the Nuclear Non-Proliferation Treaty explicitly 
allows nations that foreswear nuclear weapons to develop 
nuclear power for peaceful purposes.
    Specifically, under the terms of the NPT, non-nuclear 
weapon signatories may build and operate what are called closed 
fuel cycles. The problem is that closed fuel cycles give these 
countries an inherent and virtually inescapable capacity to 
produce fissile material required for a nuclear weapon. This is 
because facilities and technology used to enriched uranium for 
power reactors can also be used to produce HEU for weapons, and 
because reprocessing spent fuel yields plutonium that can be 
fashioned into nuclear weapons.
    And as with the cases of North Korea and presumptively Iran 
demonstrate, regimes that intend to violate the treaty's ban on 
nuclear weapons can gather the resources necessary to make 
nuclear weapons, and can even start to build nuclear weapons 
clandestinely, all the while seeming to remain within the terms 
of the treaty. They can then abrogate the treaty and proceed to 
build a nuclear arsenal in the open.
    Now as serious as this potentially may be, I think the 
problem is broader than the ``nuclear weapons wanna-bes'' using 
the NPT as cover as they pursue their ambitions. The right to 
have a closed fuel cycle also provides an attractive vehicle 
for countries that, for whatever reason, want to create and 
maintain an option to acquire nuclear weapons at some time in 
the future. Indeed, even ``nuclear power wanna-bes'' who may 
not have any present intention or desire to create such an 
option, nevertheless will have done so if they construct a 
closed fuel cycle.
    Now, I want to be clear that I am not here to attack the 
Nuclear Non-Proliferation Treaty. As we said in our op-ed, if 
we didn't have an NPT we surely would want to invent it. But at 
the same time, I also want to emphasize that it would be a 
serious mistake to regard the NPT as perfect and complete, or 
as some sort of sacrosanct last word on international regimes 
and arrangements to address the non-proliferation threat.
    There is a loophole. But in addressing this loophole, one 
pitfall that I think we need to be very careful to avoid is to 
let nuclear non-proliferation become the enemy of civilian 
nuclear power. Nuclear power generation has a potentially 
important role to play in meeting global energy needs and 
addressing global warming concerns. We should try to develop 
and exploit that potential and not cripple it.
    Perhaps more to the point, posing the issue as nuclear non-
proliferation versus nuclear power presents a false choice and 
invites a battle that need not be fought.
    Instead, the United States should take the lead in building 
an international regime alongside the NPT that promotes 
civilian nuclear power but discourages or prohibits closed 
nuclear fuel cycles. Such a regime would consist of obligations 
both on the part of countries that want to develop a civilian 
nuclear power industry, and those countries that provide the 
required capabilities.
    The additional obligations of the customers are simply 
stated. In addition to their NPT obligations, the customers 
would agree not to manufacture, store, or reprocess nuclear 
fuel. And they would also agree to inspections to confirm that 
they were living up to these undertakings.
    Those countries that now sell peaceful nuclear technology 
in accordance with the NPT would take on both positive and 
negative obligations.
    First, the suppliers would agree to forego the sale or 
transfer of any equipment or technology designed for the 
enrichment or reprocessing of nuclear fuel to any country that 
does not already have a fully operational nuclear fuel cycle. 
These suppliers would also agree to provide technology, 
equipment, or fuel for nuclear power reactors only to those 
countries that have renounced their right to enrich and 
reprocess nuclear fuel themselves.
    Second, the suppliers would guarantee the reliable supply 
of nuclear fuel and the retrieval of spent fuel at competitive 
prices to those customer countries that agree to this new 
arrangement. And to enhance the attractiveness of such a 
bargain, and to try to make it all but economically 
irresistible. I believe the consideration should also be given 
to providing these services not merely at competitive, but 
deeply subsidized prices. In this connection, John Deutch has 
calculated that such subsidies would be quite affordable, even 
if the deployment of civilian nuclear reactors expanded 
dramatically.
    Moreover, there is every reason to believe that the United 
States would not have to foot the whole bill itself, not least 
because other countries that would be providing nuclear fuel 
services under this arrangement would face powerful domestic 
political incentives to subsidize the costs of those services 
in order to remain competitive in the global nuclear fuel 
industry.
    Now, obviously, what I have presented are no more than the 
broadest outlines of such a regime, one that parallels in some 
respects some of the ideas that President Bush presented in his 
February 11 speech at the National Defense University. A large 
number of details would have to be filled in, such as what 
exactly would be the arrangements for international consortium 
that provided guaranteed fuel services at competitive or 
subsidized prices.
    And there is a long, long list of hard questions to be 
addressed, ranging from how formal or informal such an 
international regime should be, to whether and what kind of 
sanctions should be applied to countries on either the supply 
side or the customer side who do not join the new arrangements. 
To questions about how to treat countries like Brazil that have 
nuclear supplier ambitions, to how to deal with countries like 
India and Pakistan, that have demonstrated nuclear weapon 
capabilities but are outside the NPT. And I think we need to be 
honest with ourselves that even more so than the case of the 
NPT itself, there are those who will charge--with some 
justification--that any such international arrangement would be 
highly discriminatory. It would be.
    And even if all of these objections could be answered and 
the various problems and objections can be overcome, the new 
regime would not be a cure-all because there is no one right 
approach, there is no silver bullet.
    But I do believe that it could provide a key building block 
in a comprehensive strategy to combat nuclear proliferation 
while at the same time promoting the development of a civilian 
nuclear energy industry. And that potential convinces me that 
an approach along these lines warrants serious consideration.
    Thank you.
    [The prepared statement of Secretary Kanter follows:]

                Prepared Statement of Hon. Arnold Kanter

                    COUNTERING NUCLEAR PROLIFERATION

    Mr. Chairman and Members of the Committee, I appreciate this 
opportunity to join Bill Perry and Ash Carter this morning to discuss 
``Nonproliferation and Arms Control: Strategic Choices.'' I also want 
to take this opportunity on behalf of Brent Scowcroft to express his 
regret that he is unavoidably out of town this week and therefore could 
not appear. Brent did ask me to convey his appreciation to the Chairman 
and the Committee for holding the hearings that are being launched 
today, and his conviction that they could not be more important or 
timely.
    Ash Carter has provided a framework and approach for addressing the 
broad WMD problem. Building on some of the ideas that were sketched out 
in the New York Times op-ed that I co-authored with Ash, Bill, and 
Brent, I want to concentrate on one particular WMD problem: the 
proliferation of nuclear weapons and material that is among the most 
serious--and proximate--security risks we face, and that is surely the 
most serious proliferation risk that we confront. My main purpose today 
is to present a way of thinking about the problem of nuclear 
proliferation and to suggest some elements of a comprehensive strategy 
for addressing that nuclear threat.
    As will quickly become apparent, I surely do not have all of the 
answers. Indeed, any such strategy would have to tackle a series of 
questions that do not have any easy--or, in some cases, even any good--
answers. But in what I understand to be the spirit of these hearings, I 
hope I will be able to contribute to efforts to move the debate beyond 
familiar reiterations of how serious the nuclear proliferation threat 
is to an examination of strategic approaches and concrete measures to 
deal with it.
    Let me begin by repeating what has already been said, but probably 
cannot be said often enough: there is no one right approach or single 
policy instrument that can solve the nuclear proliferation problem by 
itself, and the search for such a silver bullet will prove futile or 
worse. I believe that this is the overarching theme of President Bush's 
February 11 speech at NDU, which presented a series of seven measures 
that, taken together, constitute a good agenda for action. But let me 
quickly add two points. First, any set of measures is likely to be more 
effective if the constituent elements are fitted together to form a 
coherent, multi-faceted strategy. Second, because the nuclear 
proliferation threat is diverse rather than homogenous, the strategy to 
counter nuclear proliferation should likewise be differentiated. Simply 
stated, we need a strategy that not only is multi-faceted, but also one 
whose respective elements are focused on particular parts of the 
overall threat.
A ``Supply and Demand'' Perspective on Nuclear Proliferation
    Let me try to explain what I mean by delineating some categories of 
problems and policy responses. It is convenient--although hardly 
original--to think of the nuclear proliferation problem as a matter of 
``supply'' and ``demand.''
    On the ``demand'' side, I think it is useful to distinguish among 
three kinds of demand for policy purposes. One kind is the demand for a 
nuclear weapons capability per se. The source of this demand are the 
nuclear weapon wanna-bes, the bad guys whom we usually have foremost in 
our minds when we talk about the problem of nuclear proliferation. 
North Korea and, until recently, Libya would be good illustrations of 
this category. You would not have to be excessively suspicious about 
Iranian motives to put Tehran in this category as well.
    It also is important to distinguish between two kinds of nuclear 
weapons wanna-bes i.e., states and non-state terrorists, because some 
policy instruments that are likely to be effective for one kind of 
nuclear weapon wanna-be are unlikely to be effective with respect to 
another. In particular, I believe that incentives can play a role in 
persuading nuclear weapon wanna-be states to abandon their nuclear 
ambitions, but I am deeply skeptical that they have much if any 
relevance to terrorists.
    A second source of demand is for nuclear power generation to meet 
energy needs. These are the nuclear power wanna-bes who do not harbor 
any secret plans or ambitions to acquire nuclear weapons. Brazil might 
be a country you would put into this category.
    Finally, there is an admittedly imprecise middle category of demand 
composed of those who are pursuing nuclear power capabilities not only 
to meet energy requirements, but also to create an option for nuclear 
weapons sometime in the future. If Iran is not a nuclear weapon wanna-
be, then at a minimum, it surely falls into this category.
    On the supply side, it also is useful to distinguish among three 
categories for policy purposes. One kind is the supply of nuclear 
weapons technology, equipment, and know-how. Put simply, this is about 
the intentional provision of a nuclear weapons capability, and--until 
recently--A.Q. Khan was its poster child. It also is the kind of 
``supply'' problem that has been the major, if not predominant, focus 
of our nuclear nonproliferation efforts. The Proliferation Security 
Initiative is a recent and promising example of a policy instrument 
designed to address this particular supply problem.
    A second kind of ``supply'' is represented by the stores of 
dispersed nuclear warheads, and the stockpiles of inadequately secured 
nuclear weapons material, much--but, it must be emphasized, not all--of 
which is concentrated in Russia. This is the ``loose nukes'' problem, 
one that the rise of global terrorism has turned into an all too 
plausible nightmare. For nuclear weapon wanna-bes, access to the 
weapons themselves is a dream come true. But access to nuclear weapon 
material would be the next best thing. After all, the principal 
obstacle that nuclear weapon wanna-bes face--and toward which most of 
their efforts are directed--is acquiring or making the enriched uranium 
and plutonium needed for a weapon. Nunn-Lugar and related programs are 
designed to address this part of the supply problem.
    A third kind of ``supply'' is the inadvertent but inescapable 
byproduct of civilian nuclear power programs, notably those activities 
related to the production, storage, and reprocessing of nuclear fuel. 
That is, those attributes that are intrinsic to a closed nuclear fuel 
cycle constitute an ongoing potential to produce material for nuclear 
weapons. (This is one reason why the recent North Korean proposal to 
preserve a civilian nuclear program--if it is serious rather than a 
negotiating ploy--is an utter non-starter.) This is an aspect of 
nuclear proliferation that we have recognized worried about for some 
time, but are just beginning to address in ways that I think hold some 
promise of being effective. I will offer some specific suggestions in a 
moment.
    The range of complementary, yet distinct, tasks that a 
comprehensive and coherent nuclear nonproliferation policy must 
accomplish correspond to these multiple sources of supply and demand. 
But reduced to their essence, these tasks are (1) to actively frustrate 
the ambitions of the nuclear weapon wanna-bes by denying them access to 
critical technology, equipment, and materials, (2) to construct a 
network of effective sanctions and powerful positive incentives that 
present nuclear weapon wanna-bes with an all but irresistible choice to 
abandon their nuclear ambitions, and (3) to put in place both 
incentives and barriers that effectively discourage not only nuclear 
power wanna-bes but also countries in the undecided middle category 
from seriously considering, much less pursuing, a nuclear weapons 
option.
    Many of the elements of such a multi-faceted policy already are in 
place. Much of what remains to be done is to fill in some hard-to-fill-
in blanks, ensure that both the right kind and enough resources are 
being devoted to the respective tasks and--very important--make sure 
that there is close coordination among the parts so that the result is 
a coherent whole. I do not pretend to have a complete blueprint or a 
detailed road map for reaching this goal. What follows are some 
illustrations and observations that I hope will contribute to the 
process.

Frustrating Nuclear Weapon Wanna-bes
    Let me begin with the challenge of denying determined nuclear 
weapon wanna-bes access to the technology, equipment, material, and 
know-how they need to achieve their goal. Here--and being careful not 
to claim victory prematurely--I think we can point to some recent 
success stories such as A.Q. Khan, and Libya and, in a way, even Iran. 
Behind these well-publicized success stories are many more less visible 
and less grand, but still important, victories. There also are new 
tough-minded measures such as the Proliferation Security Initiative. We 
of course can and should always hope to do better, beginning with 
steadily improving intelligence and intelligence operations, and making 
as determined an effort as possible to broaden and strengthen 
international cooperation. But on the whole, I believe that this part 
of strategy to counter nuclear proliferation not only has received the 
most attention, but also probably is the furthest advanced of any of 
the elements.
    Looking ahead, I think that the Libyan case is particularly 
instructive in at least three respects:

  <bullet> First, Libya is the most recent of several countries to 
        provide grounds for optimism that even nuclear weapon wanna-bes 
        can be persuaded to reverse course and abandon their nuclear 
        weapons ambitions.

  <bullet> Second, our apparent success in Libya seems to have based on 
        a strategy that (a) made Libyan efforts to acquire a nuclear 
        weapons capability so difficult and frustrating that it helped 
        persuade Qadhafi that the attempt would ultimately prove 
        futile, (b) imposed real and increasingly painful costs on 
        Libya so long as it pursued its nuclear weapons ambitions, and 
        (c) held out the credible prospect of tangible and meaningful 
        benefits if Qadhafi turned away from the nuclear weapons path.

  <bullet> Third, I would not be surprised if we learn that the supply 
        side consists not only of shadowy figures and underground 
        nuclear supermarkets, but also active roles by companies and 
        individuals--if not governments--in Europe and other places 
        that we count among our friends and allies.

For all these reasons, it strikes me that it would be worthwhile to 
study the Libyan case closely--in both its classified and unclassified 
aspects--to see the extent to which its lessons can be applied to other 
hard nuclear nonproliferation cases, perhaps starting with Iran.

Containing ``Loose Nukes''
    A great deal already has been spoken and written about the problem 
of ``loose nukes,'' so I will confine myself to underscoring three 
points. First, all roads lead back to Russia when we are talking about 
combating the spread of nuclear weapons--not only, but especially, when 
talking about loose nukes--in the sense that no policy can hope to be 
successful if it does not succeed in Russia. As a corollary, no policy 
can succeed in Russia if we do not have a relationship with the 
Russians that encourages real cooperation on this issue, something that 
the Nunn-Lugar track record clearly indicates neither can be taken for 
granted nor achieved with money alone.
    Second, adequate resources may not make all the difference, but 
inadequate resources are a virtual guarantee of failure. Money is 
central, but this is not just a matter of money. Nunn-Lugar needs to be 
treated consistently as a high priority by the Administration and the 
Congress, rather than as just another laudable program that receives 
intermittent attention and some share of discretionary resources.
    Third, this is not just a problem with or in Russia. While it is 
true that in quantitative terms, most of the loose nuke problem is 
located in Russia, not all of it is. Furthermore, quantity is not an 
adequate yardstick because nuclear weapons have a quality all their 
own. Put differently, a little nuclear material can go a long way 
because even just one nuclear detonation or dirty bomb can ruin your 
whole day.
    Two implications follow. One is that Nunn-Lugar and related 
programs need to be truly international in scope rather than FSU-
centric both in concept and execution. In this regard, the successful 
effort to remove nuclear fuel from the research reactor in Belgrade was 
important both in its own right and as a model for similar actions in 
the future. It also could serve as a model for practical cooperation 
between the United States and Russia that could pay both 
nonproliferation and broader political benefits. The other implication 
is that efforts to deal with the loose nukes problem benefit immensely 
from being multilateral rather than unilateral. The G-8 Global 
Partnership, or ``10 + 10 over 10,'' initiative is a good beginning at 
sharing responsibility for the loose nukes problem (but, as President 
Bush has proposed, the time has also come to broaden its scope beyond 
the countries of the former Soviet Union).
    Moreover, the benefits of international cooperation obviously 
extend beyond the loose nukes problem. As the successes of the 
Proliferation Security Initiative and especially the breakthrough on 
Libya make clear, it is hard to imagine virtually any aspect of a 
nuclear nonproliferation policy that would not be more effective if it 
had the active cooperation of other governments. Indeed, it is easy to 
imagine many initiatives that could only be successful with such 
cooperation.

Building Walls Between Nuclear Power and Nuclear Weapons
    The final broad proliferation problem that I want to address is the 
one posed by nuclear power wanna-bes, and the challenge of encouraging 
safe civilian nuclear power to meet global energy needs while at the 
same time discouraging any temptation--now or in the future--to use 
such programs to create a nuclear weapons capability. As I noted above, 
the supply-demand nexus for civilian nuclear power to meet energy 
requirements poses intrinsic and serious nuclear proliferation risks. 
This is neither a new problem nor one that has been only recently 
identified. But in my opinion, it has not received the attention it 
warrants, particularly in the context of fashioning a comprehensive and 
coherent nuclear non-proliferation policy.
    Let me be clear, this observation is not intended to be a criticism 
of, much less an attack on, the Nuclear Non-Proliferation Treaty. There 
is no silver bullet solution to the nuclear proliferation problem, and 
the NPT isn't one either. But it also is true that the Treaty is 
neither ineffective nor obsolete. As my colleagues and I argued in our 
New York Times December Op-Ed, if we did not have an NPT, we would 
almost surely want to invent it. At the same time, the Treaty is not 
sacrosanct. It certainly can be modernized and strengthened. In this 
respect, I believe that the Additional Protocol can make an important 
contribution, and I hope that the Senate acts favorably on it.
    It likewise would be a mistake to regard the NPT as the last word 
on international regimes governing civilian nuclear power. Recall that 
the NPT explicitly allows nations that foreswear nuclear weapons to 
develop nuclear power for peaceful purposes. Specifically, under the 
terms of the NPT, non-nuclear weapon state signatories may build and 
operate nuclear reactors, and they are permitted to produce enriched 
uranium that fuels the reactors, to store the radioactive spent fuel 
from those reactors, and to reprocess that spent fuel. The only 
specific obligations are that the signatories declare these facilities 
to the International Atomic Energy Agency and allow the Agency to 
inspect them. (The Additional Protocol should help strengthen the 
IAEA's ability to exercise this authority.)
    As we know, the problem is that this ``closed fuel cycle'' gives 
these countries an inherent and virtually inescapable capacity to 
produce the fissile material required for a nuclear weapon. Facilities 
used to produce enriched uranium for power reactors also can be used to 
produce highly enriched uranium--HEU--for weapons. Reprocessing spent 
fuel yields plutonium that can fashioned into nuclear weapons. As the 
cases of North Korea and--presumptively--Iran demonstrate, regimes that 
intend to violate the Treaty's ban on nuclear weapons can exploit this 
right to operate a nuclear power plant. While seeming to remain within 
the terms of the treaty, they can gather all the resources necessary to 
make nuclear weapons, and can even start to build weapons 
clandestinely. Then they can abrogate the Treaty and proceed to build a 
nuclear arsenal in the open.
    Serious as this potential may be, the problem is broader than 
nuclear weapon wanna-bes using the NPT as cover and concealment as they 
pursue their ambitions. The right to have a closed fuel cycle also 
provides an attractive vehicle for countries that, for whatever reason, 
want to create and maintain the option to acquire nuclear weapons at 
some time in the future. Indeed, even the nuclear power wanna-bes who 
may not have any present intention or desire to create the option to 
become a nuclear weapons state nevertheless will have done so if they 
construct a closed fuel cycle.
    In addressing this issue, one pitfall to be avoided is to let 
nuclear nonproliferation become the enemy of civilian nuclear power. 
That would be serious mistake on three counts. First, it is a fight 
that advocates of nuclear nonproliferation could easily lose. Second, 
nuclear power generation has a potentially important role to play in 
meeting global energy needs and addressing global warming concerns. We 
should be trying to develop and exploit that potential rather than 
cripple it. Third, posing the issue as nuclear nonproliferation versus 
nuclear power presents a false choice and poses a battle that need not 
be fought.
    Instead, the United States should take the lead in building an 
international regime alongside the NPT that promotes civilian nuclear 
power but discourages or prohibits closed nuclear fuel cycles. Such a 
regime would consist of obligations both on the part of customers for 
civilian nuclear power and the suppliers of the required capabilities.
    The additional obligations of the ``customers'' are simply stated: 
in addition to their NPT obligations, the customers would agree not to 
manufacture, store, or reprocess nuclear fuel. They also would agree to 
inspections to confirm that they were living up to their undertakings.
    Those countries that now sell peaceful nuclear technology in 
accordance with the NPT would take on both additional positive and 
negative obligations. First, they would agree to forego the sale or 
transfer of any equipment or technology designed for the enrichment or 
reprocessing of nuclear fuel to any country that did not already have a 
fully operational nuclear fuel cycle. They also would agree to provide 
technology, equipment, or fuel for nuclear reactors only to those 
countries that had renounced their right to enrich and reprocess 
nuclear fuel. Second, these suppliers would guarantee the reliable 
supply of nuclear fuel and the retrieval of spent fuel at competitive 
prices to those ``customer countries'' that agree to this new 
arrangement.
    To enhance the attractiveness of such a bargain and make it all but 
economically irresistible (as well as help to distinguish between true 
nuclear power wanna-bes and those who harbor nuclear weapon ambitions), 
consideration should be given to providing these services not merely at 
competitive, but at deeply subsidized, prices. In this connection, John 
Deutch has calculated that such subsidies would be affordable, perhaps 
on order of 1-2 percent of the annual DOD budget. Moreover, there is 
every reason to believe that the United States would not have to foot 
the full bill, not least because those other countries that would be 
providing nuclear fuel services would have domestic political 
incentives to subsidize the cost of those services in order remain 
competitive in the global nuclear fuel industry.
    Obviously, these are no more than the broadest outlines of such a 
regime, one that parallels some of the ideas President Bush presented 
in his February 11 speech at NDU. A large number of details would have 
to be filled in, such as the arrangements for an international 
consortium that would provide guaranteed fuel services at competitive 
or even subsidized prices (and, if subsidized, how the subsidies would 
be calculated and who would pay them). There also are a long list of 
hard questions to be addressed, ranging from how formal or informal 
such a regime should be, to whether sanctions should be applied to 
suppliers or customers who do not join in the new arrangements, to how 
to treat countries like Brazil that have nuclear supplier ambitions, to 
how to deal with countries like India and Pakistan that have 
demonstrated nuclear weapons capabilities but are outside the NPT. And 
even more than in the case of NPT itself, there will be those who will 
charge--with some justification--that any such international 
arrangement would be highly ``discriminatory.''
    Even if all of the questions can be answered and the various 
problems and objections can be overcome, this new international regime 
would not be a cure-all. But I do believe that it could provide a key 
building block in a comprehensive nuclear nonproliferation strategy, 
while at the same time promoting the development of peaceful nuclear 
energy. That potential convinces me that an approach along these lines 
warrants serious consideration. Thank you.

    The Chairman. Thank you very much, Secretary Kanter.
    Let me begin the questioning by suggesting that each member 
might take 10 minutes in the first round.
    I want to mention in advance that Secretary Perry wanted to 
leave our hearing about 11 o'clock. This will give us the 
opportunity for questioning before he departs. Perhaps we may 
continue if others might be prepared to stay a bit longer.
    In your testimony, very collectively, you have all 
mentioned the importance not only of international cooperation, 
but also of something beyond that, perhaps an almost universal 
sign-up of countries, a truly comprehensive full-court press in 
this area. I think that is a tremendously important point which 
I would want to affirm.
    I would also mention that we have had success, at least in 
the Congress, with the non-proliferation legislation being 
expanded beyond Russia and the New Independent States, far be 
it that $50 million of the funds could be expended somewhere 
else. The funds were not increased, but the $50 million is 
flexible.
    It has been suggested in previous hearings that these 
funds, for example, might be used in Libya. Once again, 
however, we have run up against problems that are always 
inherent in the situation. Namely the United States has a 
number of political and economic sanctions still being enforced 
against Libya. The funds cannot be used in a country in which 
we are imposing sanctions.
    This gets back to a fundamental problem of the legislation 
with regard to Russia, for example, because Secretary Kanter 
has made the point that all of the issues get back to Russia in 
one form or another. It's cooperation.
    Some have found this to be almost counter-intuitive, after 
the fall of the Soviet Union. It is not counter-intuitive to 
many Russians who came to visit with the three of you, with Sam 
Nunn and myself, and with others. This suggests that we had a 
mutual problem.
    This has not ever been completely understood, but 
hopefully, in the course of our hearings and future 
legislation, we will understand that we are not dealing here 
with foreign aid to Russia, or a gift, or some grant. We're 
involved in a question of mutual security.
    From the very beginning, the Nunn-Lugar program was plagued 
with other stipulations added by well-meaning Members who 
suggested that money ought not to be available to the Russians 
if they were not clearly forthcoming with regard to all the 
information that we required about their weapons of mass 
destruction, or their facilities, or so forth, or even their 
reports were incomplete or inaccurate.
    Leaving aside why they lied or cheated, there were lots of 
questions that could not be evaluated, or various other 
stipulations.
    If the Russian responses at any point in history were 
unsatisfying, the Cooperative Threat Reduction moneys ended, as 
did services by the technicians and so forth. This is not an 
academic issue. In the year just past, we had a period of 6 
months in which the whole thing literally stopped.
    It may have been an imperative program for national 
security, but nevertheless the Secretary of State felt that he 
could not stipulate that each of the conditions that were 
required had been met. Therefore, there would be no funding, 
and no extension of the program until that occurred.
    That has been redressed eventually by waivers. That is, the 
President of the United States, and, through him, his 
Secretaries, have been allowed to proceed, notwithstanding the 
fact that not all of these stipulations were met.
    I would also like to cite a non-nuclear site, namely the 
chemical program at Schyuchye where there have been hundreds of 
millions of dollars of United States funds. Funds from other 
nations have been expended on elimination facilities.
    It will be critical, as the program is expanded, to discern 
whether all of the weapons, 1.9 million different shells of 
various sizes, all the way up to Scud missiles, and all the way 
down to 85 millimeter shells, be destroyed. Likewise, we must 
examine the chemical arms for two others among the seven sites 
that Russia and the United States are guarding.
    There were additional stipulations there. It takes time and 
effort to get waivers and legislation for waivers, so that the 
President can proceed there. I would just say, frankly, that we 
have not succeeded in getting, not even to the President of the 
United States, a permanent waiver authority. After another year 
or so, things will run out again at Schyuchye, and we will be 
back once again examining this project.
    We're really talking here about the most fundamental 
problem of security that our Nation faces. Yet even at this 
point, 13 years down the trail from the initial legislation, 
we're still involved with thoughts that somehow the Russians 
may not always do the right thing. Therefore, we sanction them 
by cutting off the Cooperative Threat Reduction Program.
    I am hopeful that we will all get a better understanding, 
through these discussions, of how important it is to proceed. 
Because the Russian relationship has gone up and down a good 
bit during the 13 years. Mercifully, the Cooperative Threat 
Reduction Program has survived all of the ups and downs, in 
large part because Russians, as well as Americans, saw it was 
imperative to their national security.
    The third point that I wanted to make is that we are now in 
a situation, with the A.Q. Khan revelation that has been 
mentioned, of an extraordinary breakthrough, in two ways, one 
of which is that President Qadhafi in Libya has come to a 
pragmatic decision.
    Senator Biden had a visit with Qadhafi just a week ago. He 
has told some of us about his conversations, in which the 
Libyan leader had simply come to the conclusion that this was a 
bad mistake, in terms of foreign policy. And if you made a bad 
mistake, it's best to get rid of it thoroughly. We're literally 
carting it out, root and branch, and in a very summary fashion.
    We're now allowing Americans to go to Libya, and we are 
encouraging trade to proceed. Not all of the sanctions have 
been lifted, although five by the President in assembly last 
week. This is a remarkable turnaround.
    There is sort of a road map of cooperation of this 
information. On occasion even materials, including trades for 
missiles with North Korea, for example, all of these things 
have come into public view in a way that is startling. All of 
this proceeded for two decades.
    Some of the arsenal was suspected, but not in that amount 
or degree. Specific countries weren't necessarily named. It is 
a therefore remarkable opportunity at this stage to followup on 
each of these reports of actual trades, on reports of human 
beings selling stuff for money, perhaps with the patriotic 
motive, perhaps with a profit motive, and perhaps with a 
combination of this.
    All of this leads to some debate in Congress about whether 
the Cooperative Threat Reduction Program, for example, ought to 
expand beyond Russia. We decided that in a way, but only 
barely. There is still genuine ongoing debate.
    Some of our colleagues in the Armed Services Committee say 
that, after all, this is money that is subtracted from the 
Defense Department for other objectives. The Department might 
want to undertake weapons systems, for example, or increase pay 
to the troops.
    Some would argue that it should not be the Department of 
Defense bearing this, but rather that the State Department 
ought to do it. They say that this is a matter of diplomacy. 
Already the Department of Energy is heavily invested. Their 
investment is at least the equivalent of that of the Department 
of Defense, and maybe in some cases more. Furthermore, we have 
now added all of this together, and, although the Department of 
Defense's part may be $450 million more or less each year, over 
a billion dollars in these programs collectively is the figure 
that we state to the other members of the G-8, in the so-called 
10 + 10 over 10 program. We are encouraging them to match at 
least a billion dollars that we're putting in for 10 years, but 
this goes very slowly.
    The urgency there has not quite been felt. If you were to 
draw up a chart of 10 years and ask how much anybody would 
deposit in this period of time, the fill-ins just don't occur. 
Less than half of the $10 billion can be seen, I think.
    What should the priorities be? What amount of money should 
be spent in each of these 10 years? It is very, very difficult 
to get answers to this. Clearly, heavy diplomacy on our part 
and that of others will be required. There are frameworks out 
there to achieve some of the objectives that we are talking 
about today. At the same time, one purpose of this hearing is 
to bring a much greater sense of urgency to our administration, 
to the G-8 members, to the Russians and to the Duma in 
particular. Right now we're holding up the liability treaties 
that are required by European friends who want to become 
involved. We are pleased that they can become involved.
    This is going to require insistent drum-beating all of the 
time, I suspect. This is why I go through the tedium of it 
presently. You have all been involved in it, too. You were on 
the battle lines in the administration, in academia, and both, 
coming and going.
    I am enthusiastic about the program that you have 
illustrated. This has enhanced the practical political measures 
that have to accompany that. Public opinion might be seized 
with this, perhaps in a different way, perhaps in a way in 
which the urgency is felt by people in this country who truly 
are worried about the war against terrorism.
    I am deeply worried when you express the thought that a 9/
11 highjackers, instead of having a guided missile, going into 
the World Trade Center, might have had a 12 kiloton nuclear 
weapon. In that case, the circles of devastation and death, 
along with the end of New York City, come into view. That is a 
different problem. That is what Secretary Perry commenced with.
    Let me cease-fire for a moment and recognize my colleague, 
Senator Nelson.
    Senator Nelson. Thank you, Mr. Chairman.
    In the President's budget, there is a $41 million cut in 
the Department of Defense account Cooperative Threat Reduction 
Program. Why shouldn't we be raising Cain with the cut?
    Mr. Perry. I have a simple answer to that question, Senator 
Nelson.
    I believe I stated in my testimony that I believe we have 
an overriding priority to stop nuclear proliferation, an 
overriding priority. And that is not consistent with cutting 
the Cooperative Threat Reduction Program, and I am in favor of 
increasing and not cutting.
    Senator Nelson. Well, I'm going to raise some Cain. And I 
am going to do it this afternoon on the budget that's on the 
floor. I don't expect to win it because they have got this 
thing in a financial straightjacket where you have to take if 
from someplace else. But I am sure going to do it.
    Mr. Perry. Let me say one other thing.
    Senator Nelson. Just to keep the issue visible.
    Mr. Perry. When I was the Secretary of Defense, I was 
continually frustrated by attempts to treat the Nunn-Lugar 
program as foreign aid. And one of the ways that I used in 
dealing with that frustration is I referred to it continually 
as defense by other means. It is a defense program. It is for 
the national security of the country. It is not to help other 
countries. And I think put in that context, it gets you a 
better basis for dealing with the issue.
    I can not think of any other program that has a higher 
priority in terms of really protecting the security of 
Americans than these programs.
    Mr. Kanter. Senator Nelson, if you think that your exercise 
this afternoon is going to be an exercise of tilting at 
windmills, let me suggest another windmill at which to tilt.
    It is the way in which the Congress deals with the overall 
budget problem, and in particular, distinguishing between the 
050 account and the 150 account, as though somehow real 
national security gets budgeted as 050 and that other stuff is 
budgeted as 150. And, fights about whether the State Department 
ought to be paying, or whether this is taking money away from 
Defense programs, and so forth.
    In some respects, these fights have their root in the way 
in which the problem is defined. And I think removing a line 
which certainly in the post-cold war world and absolutely in 
post-9/11 world, makes no sense whatsoever would be one way to 
help properly frame the debate in terms of the tradeoffs that 
inevitably have to be made.
    Senator Nelson. Interestingly, when the budget act was 
enacted back in the 1970s, it had as it purpose to try to bring 
some financial discipline to stop the hemorrhage of deficit 
financing. The whole budget act is being used for other 
proposes, and the one of which you have just indicated is a 
good example. That is in my judgment, and obviously yours and 
it's not in the best interest of the country.
    Let me ask you, why shouldn't it be the policy of the U.S. 
Government to be leaning on Pakistan right now, President 
Musharraf, to get Dr. Khan to come clean with who all he has 
proliferated.
    Mr. Kanter. My impression, which may well be mistaken, is 
that is the policy of the U.S. Government. I would distinguish 
between the question of whether A.Q. Khan should be thrown into 
jail and throw away the key, that he should be punished, and 
the question of can we find out as much as possible about what 
he and his associates have been doing for the last 20 years? 
And, can we be as confident as possible that we have not just 
disrupted, but destroyed, the network?
    I think that putting Mr. Khan in jail or whatever might be 
therapeutic, but it doesn't go to the issue. Where we ought to 
be concentrating is on the latter problem, and frankly my 
impression is that is the U.S. priority.
    Senator Nelson. Well we know, for example, about North 
Korea and Libya. But we don't know if he sent some material and 
information to al-Qaeda, and that takes it to another whole 
level. What do you think, Dr. Carter?
    Mr. Carter. Well, I can only hope that part of the deal 
that Musharraf made with A.Q. Khan, that keeps A.Q. Khan out of 
jail is that he has to come completely clean with all of his 
transactions to include especially and I think you asked a very 
good question, did he confine his activities to foreign states 
or were there non-state partners to this trade. And we know 
that in his entourage there were those who sympathized with the 
Taliban, and with al-Qaeda. And therefore there is every reason 
to believe that people who are willing to trade with North 
Korea might well have been even more willing to trade with al-
Qaeda.
    I don't know the details of the arrangement that Musharraf 
made with A.Q. Khan, nor the details of any arrangement if we 
have one with Musharraf about the treatment of A.Q. Khan. But 
it seems to me that we need to get to the bottom of 
particularly the question you just raised.
    May I add one more thing to your query about the funding as 
well, and this gets back to Senator Lugar's point about the 
Nunn-Lugar program.
    This diminution in the funding is, to me, just one more 
symptom of the problem that both of you were pointing out, 
which is that Nunn-Lugar is spoken fondly of, but not really 
pro-actively managed. I should say, parenthetically that this 
has been true for some time, and it is a statement in my 
judgment not purely about the current administration. I had the 
same beef, actually going back in time.
    And it has a couple of results. One is the pernicious 
results. One is the one that Senator Lugar pointed to earlier 
that we're constantly reacting to these problems. We find 
ourselves unable to certify. The legislation has been on the 
books for a decade. How can you discover that you can't certify 
all of a sudden, and then spend 6 months trying to dig yourself 
out of a hole? How can that happen 10 years into a program?
    And to me that signifies the fact the there is not that top 
level managerial attention that's looking for opportunities. 
What could we do with a Nunn-Lugar, this novel approach, for 
disarmament in Libya? In North Korea? Where are the program 
designs? Why isn't this budgeted? Why do we let ourselves be 
blind-sided by what the Russians are doing? And yes, there's 
fault on their side, but it's our security. We need to 
anticipate that, and work against it.
    So I was really pleased to see what the President had to 
say in his National Defense University speech, which is Nunn-
Lugar is great. But, to me there has to be not just more money, 
but there has to be managerial attention. I was lucky enough to 
work for Bill Perry, and I never had to worry that there was 
support at the top for Nunn-Lugar in Defense.
    But I think that without that support at the top, we're 
playing a nibbling game on a problem that's huge and while 
we're nibbling, it's going to bite us, and you know where, one 
of these days. So I would like to see speeches followed through 
on with money and management attention. Otherwise, there is 
just talk.
    Senator Nelson. Well, I'm going to give the Senate a chance 
to go on the record today on that subject.
    Final question, Mr. Chairman.
    What would be your instructions to us regarding what we 
could learn about what changed Qadhafi's mind, so that we could 
go and encourage the leadership in Iran and North Korea?
    Mr. Kanter. It strikes me that Libya is a potentially 
fruitful case study, because, one, there apparently has been an 
important breakthrough, so it is a kind of model success.
    Two, it seems to have some distinct elements that worked in 
combination, or appeared to have worked in combination, that 
look as though they are generalizable.
    One is that there appears to have been a serious and 
ultimately successful effort to frustrate Qadhafi's weapons of 
mass destruction ambitions. We just made it really hard for him 
to succeed.
    Now, there are some folks out there who were taking his 
money and not delivering the goods, who also frustrating him. 
But I think there was a very active program to make clear to 
him that he was never going to get there. That was one element.
    The second element was that we really showed him that as 
long as he stuck at it he was going to pay a terrible price. 
But, if he turned around, not only would there be an absence of 
bads, but there would be a presence of goods. Good things would 
begin to happen, and he could really achieve his broader 
agenda. And we would actively help him do that. So this 
combination of positive and negative incentives, sanctions and 
incentives.
    Third, I think it is a real model of international 
cooperation. This was by no stretch of the imagination a U.S. 
only operation, and as far as I can understand it could have 
never have succeeded if we had tried to do it on our own.
    There were lots of countries that participated, each in 
ways that were distinctive if not unique. And it was the coming 
together of all of those efforts that made this possible.
    So, it strikes me that there is a model here that ought to 
be validated, and if it is validated, can be applied to other 
countries. And my first candidate out of the box is Iran.
    The Chairman. Thank you very much, Senator Nelson.
    Senator Alexander.
    Senator Alexander. Thank you, Mr. Chairman.
    Thank you for your testimony. Picking up on your comment on 
Iran and Senator Lugar's comment about stipulations, the three 
of you in your article suggested that we work with a country 
that we had reason not to trust to permit them to move ahead 
with nuclear powerplants in exchange for certain inspections.
    To avoid the problem we have with Nunn-Lugar, in terms of 
the wrong kinds of stipulations and controls over a person who 
we formerly had reason not to trust, what kind of stipulations 
and controls should we have under your plan to satisfy our need 
for inspection?
    Mr. Carter. I'll take that. I think the case in which 
you're referring to is Iran.
    Senator Alexander. Did I not say Iran?
    Mr. Carter. I'm sorry. I'm sorry. But----
    Senator Alexander. That's your New York Times article on 
Iran----
    Mr. Carter [continuing]. Yes, and I understand.
    Senator Alexander [continuing]. Where the nuclear 
powerplants and the idea of reprocessed fuel. What should we 
require?
    Mr. Carter. Our op-ed argued that Iran should not have 
reprocessing and enrichment facilities, inspected or non-
inspected. That constituted essentially a bomb program.
    Senator Alexander. Right.
    Mr. Carter. And that wasn't OK.
    Senator Alexander. But you've given them the fuel? In 
exchange for what?
    Mr. Carter. If they build a reactor.
    Senator Alexander. Yes.
    Mr. Carter. Then you give them fuel, one batch at a time.
    Senator Alexander. Yes.
    Mr. Carter. They irradiate the fuel and you expatriate the 
fuel.
    Senator Alexander. OK.
    Mr. Carter. They're dependent upon outside suppliers for 
enrichment, so they are not doing enrichment themselves, and 
thereby bringing themselves closer to a uranium bomb. Nor are 
they reprocessing spent fuel, obtaining plutonium and bringing 
themselves close to a plutonium bomb.
    I suppose that if we trusted the Iranians more, we would 
accept an inspected enrichment and reprocessing program. We do 
that with Japan, happily. We do that with the United Kingdom, 
happily.
    Senator Alexander. Yes.
    Mr. Carter. We even do that with Russia, happily. But we're 
not prepared to do that with Iran, and that's why our proposal 
called for Iran to not have any of those things.
    Likewise, in North Korea, by the way, Yong Byon is on the 
surface of it, a perfectly OK facility under the NPT. All 
they're doing is running reactors and reprocessing plutonium, 
and nothing is wrong. The North Koreans used to say this. I 
remember very distinctly them saying how come the Japanese can 
do it, and we can't? And the answer is, you're the North 
Koreans, and they're the Japanese. That's the only answer. So 
we don't trust those parties to do reprocessing or enrichment 
at all.
    Senator Alexander. So under your plan the only scheme we 
would need really is we give you the fuel and we retrieve the 
spent fuel, and no other requirement is needed?
    Mr. Carter. If we are able, batch by batch to remove 
irradiated fuel, then the worst that can happen is that they 
can break their agreement.
    Senator Alexander. Yes.
    Mr. Carter. And hold on to one batch of one fuel, which 
would contain reactor grade plutonium, and not weapons grade 
plutonium, which is some comfort. And, which would give them, 
if they kept it, a capacity for a small number of nuclear 
weapons, but we would immediately know what they were up to, 
and they would be immediately in breach of their international 
obligations.
    And that's a far preferable circumstance to one in which 
they build their own enrichment and reprocessing facilities, 
operate them at any scale all by themselves. Accumulate 
uranium, accumulate plutonium, then you're in a position where 
any day they can kick the inspectors out and they have a whole 
lot. This is a far better situation.
    Mr. Perry. Senator Alexander, I would add one other point 
to that. I agree completely with what Dr. Carter has said, but 
we also have to have some provisions to accommodate the 
possibility that they might have a covert program, somewhere, 
and that calls for unannounced inspections. So we need an 
inspection protocol as well as the agreement that Dr. Carter 
was describing.
    Senator Alexander. So those two things together?
    Mr. Perry. If I can, I want to emphasize the fact that it 
is very difficult to get agreements for that.
    Senator Alexander. Yes.
    Mr. Perry. And the negotiations with Iran to date are not 
close to having reached those agreements.
    Mr. Kanter. May I add one more statement?
    Senator Alexander. Sure.
    Mr. Perry. I'm sorry, but there is one further stipulation 
that is very important, and Senator Lugar raised this as well, 
which is whether participation in the NPT, in this expanded 
way, should be mandatory or not. Or whether because right now 
we regard the NPT as something that sovereign nations accede to 
if they wish to. And can withdraw from when they wish to.
    Senator Alexander. Yes.
    Mr. Perry. And I think that Senator Lugar was pointing to a 
world in which membership in the NPT was required or strongly 
expected, and brought you under deep suspicion if you were not 
a member, and in which withdrawal was not an option. Do you 
remember the roach motels, ``you can check in but you can't 
check out.'' I'm talking about the kind of NPT, where you can 
join but you can't withdraw or leave. I think that ought to be 
part of our future.
    Mr. Kanter. Senator.
    Two points. One is that the scheme we have in mind is two-
sided. That is, it not only would ask in the case of Iran, that 
Iran forego enrichment and reprocessing, but it would also try 
to construct an international suppliers' agreement so that Iran 
could not get the technology and equipment that it needs to 
enrich or reprocess fuel, even if it tried.
    So that it is a combination of getting the would be 
customer to say, ``I'm out of that business,'' or that ``I am 
not going to get into that business,'' and suppliers to say, 
``We're not going to sell you that stuff.'' So it really does 
try to close it down.
    The other point that I would make is that what we're 
suggesting doesn't try to go case by case and say that's a 
trustworthy country, that's an untrustworthy country, and so 
forth. It just tries to de-legitimize any and all new countries 
getting into the closed fuel cycle business.
    And it does that for two reasons. One, is it helps to avoid 
the need to decide who you can trust and what it takes to trust 
them.
    And the other reason is that any country with a closed 
nuclear fuel cycle can decide tomorrow that it is no longer 
going to be a part of the NPT and can start using all of that 
stuff to build nuclear weapons. It has a breakout capacity.
    So we want to minimize the risks of breakout as well as 
minimize the risks of cheating.
    Senator Alexander. So there are three things from our point 
of view. You've said that one would be the alliance of supplier 
countries?
    Mr. Perry. Yes.
    Mr. Kanter. Yes.
    Mr. Carter. Yes.
    Senator Alexander. Two would be, we give you the fuel and 
you give us back the spent fuel.
    Mr. Perry. Yes.
    Senator Alexander. And three would be some inspection?
    Mr. Kanter. Yes.
    Senator Alexander. So those would be the three.
    You mentioned North Korea. Are we making progress, Dr. 
Carter, in North Korea, or are they just busy making, 
processing nuclear fuel while we're talking?
    Mr. Carter. I'm concerned that they're making progress, and 
compared to where we were 2 years ago, where 8,000 fuel rods 
were at Yong Byon, where they could be inspected or bombed, we 
now don't know where they are. And we don't know in what 
condition. That's a deterioration of our position while we have 
considered our own strategy. So I think our options have 
narrowed and our situation has deteriorated.
    I wouldn't be candid if I didn't say that I have a concern 
that we have a divided government on this matter. From the 
outside looking in. So, it seems to me.
    And, we don't have a clear strategy to approach the North 
Koreans, and it would be bad enough if only we saw that, but I 
think the North Koreans see that also. And to approach them 
with mixed signals is dangerous business in the case of the 
North Koreans.
    And if I can add one other thing to what Senator Nelson 
raised about models, and Libya being a model and so forth. My 
own take on that is what we see in these are not models. What 
we see is the tremendous variety.
    Let's take Saddam Hussein. We need a new word for Saddam 
Hussein. He is not a rogue, because a rogue is somebody who is 
up to more than what he lets on. I don't know what you would 
call somebody who is up to less than what he lets on. But that 
was Saddam Hussein.
    Muammar Qadhafi has zigged and zagged so many times that I 
would be reluctant to generalize from his mentality.
    Kim Jong Il's mentality I don't profess to understand, 
though I have studied it quite a bit.
    And we have other cases like the Ukraine in which the Nunn-
Lugar program was central in that case in convincing that 
government that it was safe for them to take the path we 
wanted. It involved security assurances, it involved visits by 
our then Secretary of Defense to them to create the vision for 
their people that it was safe to be without nuclear weapons. It 
required concrete assistance under the Nunn-Lugar program to 
help them get the job done.
    So all of these cases are different. And therefore I loathe 
to generalize.
    And in Iran, yet different also. What it seems to me it 
teaches you is that you have got to get in there and see what 
they're up to, and work the problem.
    And we're not working the problem with the North Koreans. 
We don't have to reach agreement with the North Koreans, but I 
would like to have a faster pace of exploring the proposition 
that they can be talked out of nuclear weapons. I'm not sure 
they can be.
    But as the years drag on, I still don't know the answer to 
that question. But meanwhile they're taking steps toward 
reprocessing plutonium. That's not progress, in my judgment, 
and that's how I would answer your question.
    The Chairman. Thank you very much. Secretary Perry, I know 
that you may need to depart, and we thank you very much. I 
wanted to take advantage of the other two witnesses, and to 
raise another question or two. You're excused whenever you need 
to leave. We appreciate that.
    Mr. Perry. I'll let you ask your question and I'll answer 
that and then I will be on my way.
    The Chairman. Very well.
    I want to think aloud with you about this proposition that 
collectively the world knows which countries, which nation-
states currently have nuclear weapons. I believe that we 
probably know which nations have some fissile material, which 
may not be fully weaponized. Some elements and programs may be 
in various stages.
    I'm not certain that is the case, but I think that might be 
the case. I just wanted to test out for size with you experts 
whether the parameters of the problem could be known. The 
Nuclear Threat Initiative group has laboratories in diverse 
states, which are sometimes numbered at 23 or 24. They had 
programs in which Russia and United States at various times 
sent some elements of nuclear fuel for humanitarian proposes.
    Some of this has been retrieved, in a couple of cases, 
maybe three. Most of it has not been. Frequently that therefore 
increases the number of places, in terms of the proliferation 
issue, in which someone might secure something, such as spent 
fuel, or whatever may be there.
    The reason that I ask this is that it seems to me that as 
opposed to our waving our hands over the whole horizon, one way 
of approaching the subject is with some very specific lists of 
cases and countries, and then some program ready for narrowing 
the field.
    In other words, if we're serious about the 23 or so, maybe 
not all will be instantly cooperative in giving up their 
material, whatever it is, even if its programs are dormant. We 
need to know that there is a supposition that there is 
something out there. Some countries are cooperative and some 
countries are not.
    It is going to cost something to do that, and we need to 
think internationally with other countries, in this 
comprehensive way that we are discussing the issue today, as to 
what kind of fund we should create to do this.
    We must also get into the tougher cases that we have been 
talking about, namely situations that clearly have programs 
that are, if not entirely active, as in the case of North 
Korea, are verging on active, as in the case of Iran. Some 
nations are sort of sitting in a group by themselves, requiring 
very heavy lifting diplomatically, in a multilateral way, for 
whatever we want to do.
    Secretary Carter has mentioned the material in Great 
Britain, and France and what have you. That may be benign in a 
sense. These are responsible parties, and hopefully, already a 
part of our group. It is essential that Russia be a part of the 
group. We are approaching this together, but exclusive of the 
U.S. and Russia, we must welcome a broader group of countries.
    The world understands the narrowing-down process. The real 
focus therefore should be on determining where the dilemmas 
are, and what the procedures are going to be, if we're serious 
about safety. The British are very serious about safety, as are 
the French. The Russians who have demonstrated that. This 
doesn't rely upon foreign aid or a gift or what have you.
    As a matter of fact, the urgency, the focus of we're 
talking about comes from the thought that we're all in a war 
against terrorism. The worst aspects of this may very well be 
that non-nation states, due to dereliction of duty by any of 
the aforementioned, get the material. It is in our best 
interest, we believe, to do this.
    Some states may want to exempt themselves from this. The 
North Koreans may say that they are not prepared to sign up 
yet, but by doing so they would become the exceptions. It is 
very clear.
    I have a feeling that this problem is so diffuse, now, that 
a lot of the signals can be ignored. Somebody mentioned that 
from time to time there might be some fissile material, perhaps 
at the Devenko Laboratory in Belgrade a short time ago. Someone 
said, who cares. That's a long time ago. And they have got a 
problem, and they want some money to clean it up, and so forth. 
We may have dismissed this situation because some professed 
that it may or may not have been a big deal. We need to define 
this dilemma.
    I am just thinking aloud with the three of you as to 
whether programmatically, leaving aside whether we have 
legislation or whether this is an amendment of Nunn-Lugar or 
whatever else you want to call it, we should advise our own 
government to begin doing this and to try to exercise some 
leadership in all of the fora that we have at our disposal, 
whether it be this committee, or op-ed articles, or the 
institutions that you serve--to begin to bring this to a head 
in this way.
    Do any of you have any comments?
    Yes, Secretary Perry.
    Mr. Perry. Mr. Chairman, I'm going to defer to my 
colleagues to give a detailed answer to that question. But 
before I do, I want to associate myself with the importance of 
the question you raised. And with the belief that we do need 
substantial expansion.
    And I would think the first step in this would be an 
expansion of the Nunn-Lugar program, as the most obvious and 
most effective vehicle for dealing with the issue.
    Thank you.
    The Chairman. Thank you very much.
    Secretary Carter.
    Mr. Carter. Thank you, Mr. Chairman.
    I also very much resonate with what you just said. And let 
me just restate it, and draw the same conclusion you did.
    We don't know who has fissile material, but we do know who 
has made fissile material. And it's almost surely true, and I 
don't know anybody who believes the contrary, but at this point 
in history, only governments have made the wherewithal of 
nuclear weapons.
    Now one can't say that about biological weapons. But 
nuclear weapons which is the thing we have most to fear, can 
only be made out of plutonium or enriched uranium, and only 
governments have made that. And that means that, in principal, 
we can, by getting those governments to act properly and to 
treat every bit of fissile material as though it was an 
assembled bomb, we can contain the problem of nuclear 
proliferation and nuclear terrorism.
    And, in principal one can write down the location of every 
gram of highly enriched uranium and plutonium as you indicated. 
And make a list of places where they are. And make a plan to 
make sure that all of that material is treated as though it 
were a bomb that could fall into the hands of al-Qaeda.
    That is entirely within the ken of man to do, and a program 
manager who had the mandate to do so. And you're absolutely 
right, not everybody would be willing to enter that program 
now. North Korea wouldn't now, but I hope that sometime in the 
future they will.
    A year ago, we wouldn't believe that Libya would have been 
willing to enter that program. Thirteen years ago, or 12 years 
ago when you began the Nunn-Lugar program, we wouldn't believe 
that Ukraine and Belarus would have been prepared to do that.
    So, the bad news about nuclear weapons is once they go off 
you can't take Cipro. It is too late. The good news about 
nuclear weapons is that they can only be made out of high-
enriched uranium or plutonium and that is locatable, definable 
material. And what we should be going about is systematically 
identifying the location of every gram of this stuff and making 
sure that each and every gram is treated as though it was a 
bomb in al-Qaeda, potentially in the hands of al-Qaeda.
    The Chairman. I believe that's a very important statement. 
Every gram was produced by some known government which may or 
may not be cooperative.
    Nevertheless, what I wanted to do is take this out of the 
era of hopelessness, the feeling that somehow you just have to 
hope historically that nothing will happen because we really 
have no way of knowing. In fact we do have ways of knowing.
    By narrowing the focus of who we raise the questions with, 
it becomes a management problem, a very severe one. Having 
names like North Korea on the roster doesn't mean that you have 
solved the management problem. It is not 27 different places. 
You have finally narrowed the focus. Probably you have also 
changed the dynamics of the debate that we have on Nunn-Lugar 
or other programs.
    For example, the Nunn-Lugar program is, say, $400 or $450 
million--whatever it is. This is like a long-range program for 
building college dormitories at an expanding university. There 
is no particular urgency, the place is growing, so you build on 
about every year. It goes on and on, and there is a feeling 
that you may not solve the problem completely that year, but 
you're still making headway. It is not a life and death matter, 
ultimately, anyway.
    So you do some good, $450 million worth, wherever it may 
lie at that particular time, without the thought that you got 
your arms around the whole problem. It seems to me that once 
our country and the world has some idea of what specifically 
the problem is, and the degree of difficulty, then we will deal 
differently in terms of budget.
    For example, let's take the debate that we have had on the 
$87 billion of supplemental funds for Iraq and Afghanistan. The 
country made a decision, first of all, that we wanted to pay 
our Armed Forces. We acknowledged that that would be expensive, 
and that we would need to do that. But beyond that, about $18 
billion are for reconstruction of the country. This exceeds, by 
a multiple, any foreign assistance that we have ever done for 
any country, collectively, and in some cases for the whole lot 
in any one year.
    Now we are seized with the problem of managing this. As you 
follow the play by play of who is handling a state's defense, 
and in what sequence, and so forth, it is a lot of money. And 
yet, the thought was that this is a definable problem. Iraq 
must be successful as an economy, as a democracy, as a model.
    Seized with the problem, we have tried to allocate the 
resources. This is why I have tried to become more particular. 
I share the thoughts of all three of you. We may have not been 
seized with the priority.
    On the other hand, while the situation may remain 
hopelessly vague, you can always make a case that we're doing 
some good. As a matter of fact, the Russians are sometimes not 
very cooperative. I didn't want to get into discussion with 
Senator Nelson on that specific point, but that is one reason 
why it is $405 million this year as opposed to $450 million. In 
some cases, the Russians have said that is about as far as they 
want to go in this particular business.
    Maybe we might have pushed harder. Clearly, there are 
always more warheads to be taken off missiles, and more 
missiles to be destroyed. We're sort of at our own pace right 
now. There is a comfort level about this. Nonetheless, it 
becomes so regularized. Maybe there needs to be some urgency in 
the process.
    Secretary Kanter, listening to all of this, what do you 
have to say?
    Mr. Kanter. Amen.
    I would just add the following points.
    First, I would certainly associate myself with the idea 
that we need to have a much clearer sense of urgency and 
priority. That, in turn, I would hope would help deal with the 
various obstacles that are constantly encountered on an annual 
basis that get in the way. And it would provide a political 
basis for essentially, say in the case of Libya, providing the 
President with blanket authority to waive all sanctions as 
required to implement Nunn-Lugar for Libya.
    And there might even be some kind of symbiotic relationship 
in that kind of proposal, because if such a proposal could be 
adopted, that would help focus a sense of urgency and sense of 
priority on the problem both in Libya and overall.
    I would add a couple of other points. One is that there is 
a lot more to do than we can do, and so not knowing what we 
don't know is not a big problem right now.
    But, sooner or later we're going to discover in the case of 
North Korea, we don't know. Our ability to find HEU production 
is far different and far more limited than it is the case of 
plutonium. And so, that is a real problem trying to understand 
the scope of the problem.
    That second point I would make is that we want to make 
clear the problem is bounded and therefore manageable, if 
difficult. But we also want to keep the problem bounded by 
adopting some prophylactic measures, perhaps along the lines we 
proposed in our op-ed, to significantly reduce the risk that 
the list of countries or actors that we're worried about grows.
    And so we really do want to do both. Have a prophylactic 
component as well as this kind of remedial component. And I 
understand the trick is to avoid letting one become the enemy 
of the other, or competing with the other. I understand that is 
tough, politically, as well as analytically.
    But I do think that we need to do both.
    The Chairman. I thank both of you very much for your 
statements, and the research that has accompanied them as well 
as the articles that you have cited. We appreciate your coming 
this morning and making these contributions.
    We will all proceed together in whatever capacities we 
have, because the work is extremely important.
    If either of you have further comments, we will hear that. 
Otherwise, we will bring the hearing to a close.
    Mr. Carter. Only to thank you for having me here. I 
appreciate it for setting this agenda for all of us. Thank you 
for this opportunity, and thank you for what you're doing.
    Mr. Kanter. Thank you.
    The Chairman. Thank you.
    The hearing is adjourned.
    [Whereupon at 11:25 a.m. the committee adjourned, to 
reconvene subject to the call of the Chair.]

                                 <all>

</pre></body></html>
